<html>
<title> - EXPLORING STATE SUCCESS IN EXPANDING PARENT AND STUDENT OPTIONS</title>
<body><pre>[House Hearing, 112 Congress]
[From the U.S. Government Publishing Office]






    EXPLORING STATE SUCCESS IN EXPANDING PARENT AND STUDENT OPTIONS

=======================================================================

                                HEARING

                               before the

                    SUBCOMMITTEE ON EARLY CHILDHOOD,
                   ELEMENTARY AND SECONDARY EDUCATION

                         COMMITTEE ON EDUCATION
                           AND THE WORKFORCE

                     U.S. House of Representatives

                      ONE HUNDRED TWELFTH CONGRESS

                             SECOND SESSION

                               __________

              HEARING HELD IN WASHINGTON, DC, MAY 16, 2012

                               __________

                           Serial No. 112-61

                               __________

  Printed for the use of the Committee on Education and the Workforce



<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>





                   Available via the World Wide Web:
      http://www.gpoaccess.gov/congress/house/education/index.html
                                   or
            Committee address: http://edworkforce.house.gov

                                _____

                  U.S. GOVERNMENT PRINTING OFFICE

74-127 PDF                WASHINGTON : 2012
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001









                COMMITTEE ON EDUCATION AND THE WORKFORCE

                    JOHN KLINE, Minnesota, Chairman

Thomas E. Petri, Wisconsin           George Miller, California,
Howard P. ``Buck'' McKeon,             Senior Democratic Member
    California                       Dale E. Kildee, Michigan
Judy Biggert, Illinois               Robert E. Andrews, New Jersey
Todd Russell Platts, Pennsylvania    Robert C. ``Bobby'' Scott, 
Joe Wilson, South Carolina               Virginia
Virginia Foxx, North Carolina        Lynn C. Woolsey, California
Bob Goodlatte, Virginia              Ruben Hinojosa, Texas
Duncan Hunter, California            Carolyn McCarthy, New York
David P. Roe, Tennessee              John F. Tierney, Massachusetts
Glenn Thompson, Pennsylvania         Dennis J. Kucinich, Ohio
Tim Walberg, Michigan                Rush D. Holt, New Jersey
Scott DesJarlais, Tennessee          Susan A. Davis, California
Richard L. Hanna, New York           Raul M. Grijalva, Arizona
Todd Rokita, Indiana                 Timothy H. Bishop, New York
Larry Bucshon, Indiana               David Loebsack, Iowa
Trey Gowdy, South Carolina           Mazie K. Hirono, Hawaii
Lou Barletta, Pennsylvania           Jason Altmire, Pennsylvania
Kristi L. Noem, South Dakota         Marcia L. Fudge, Ohio
Martha Roby, Alabama
Joseph J. Heck, Nevada
Dennis A. Ross, Florida
Mike Kelly, Pennsylvania

                      Barrett Karr, Staff Director
                 Jody Calemine, Minority Staff Director

                    SUBCOMMITTEE ON EARLY CHILDHOOD,
                   ELEMENTARY AND SECONDARY EDUCATION

                  DUNCAN HUNTER, California, Chairman

John Kline, Minnesota                Dale E. Kildee, Michigan
Thomas E. Petri, Wisconsin             Ranking Minority Member
Judy Biggert, Illinois               Robert C. ``Bobby'' Scott, 
Todd Russell Platts, Pennsylvania        Virginia
Virginia Foxx, North Carolina        Carolyn McCarthy, New York
Bob Goodlatte, Virginia              Rush D. Holt, New Jersey
Richard L. Hanna, New York           Susan A. Davis, California
Lou Barletta, Pennsylvania           Raul M. Grijalva, Arizona
Kristi L. Noem, South Dakota         Mazie K. Hirono, Hawaii
Martha Roby, Alabama                 Lynn C. Woolsey, California
Mike Kelly, Pennsylvania             Marcia L. Fudge, Ohio












                            C O N T E N T S

                              ----------                              
                                                                   Page

Hearing held on May 16, 2012.....................................     1

Statement of Members:
    Hunter, Hon. Duncan, Chairman, Subcommittee on Early 
      Childhood, Elementary and Secondary Education..............     1
        Prepared statement of....................................     2
    Kildee, Hon. Dale E., ranking member, Subcommittee on Early 
      Childhood, Elementary and Secondary Education..............     3
        Prepared statement of....................................     4

Statement of Witnesses:
    Chavous, Hon. Kevin P., senior advisor, American Federation 
      for Children...............................................     5
        Prepared statement of....................................     7
    Eaddy-Samuel, Gwendolyn, parent, founder of the Connecticut 
      Parents Union..............................................    10
        Prepared statement of....................................    11
    Fletcher, Maria A., Ph.D., president, New York State PTA.....    14
        Prepared statement of....................................    16
    Ziebarth, Todd, vice president, State Advocacy and Support, 
      National Alliance for Public Charter Schools...............    18
        Prepared statement of....................................    20

Additional Submissions:
    Scott, Hon. Robert C. ``Bobby,'' a Representative in Congress 
      from the State of Virginia, additional submissions for the 
      record:
        Report: Evaluation of the Cleveland Scholarship and 
          Tutoring Program Technical Report 1998-2004, Internet 
          address to.............................................    29
        Report: Information Underload: Florida's Flawed Special-
          Ed Voucher Program, Internet address to................    29
        Report: Special Education and the Milwaukee Parental 
          Choice Program, Internet address to....................    29
        Report: Evaluation of the DC Opportunity Scholarship 
          Program, Internet address to...........................    29
        Report: MPCP Longitudinal Educational Growth Study--
          Fourth Year Report, Internet address to................    29
        Report: District of Columbia Opportunity Scholarship 
          Program: Additional Policies and Procedures Would 
          Improve Internal Controls and Program Operations, 
          Internet address to....................................    29
        Prepared statement of the Lawyers' Committee for Civil 
          Rights Under Law.......................................    29

 
    EXPLORING STATE SUCCESS IN EXPANDING PARENT AND STUDENT OPTIONS

                              ----------                              


                        Wednesday, May 16, 2012

                     U.S. House of Representatives

                    Subcommittee on Early Childhood,

                   Elementary and Secondary Education

                Committee on Education and the Workforce

                             Washington, DC

                              ----------                              

    The subcommittee met, pursuant to call, at 10:03 a.m., in 
Room 2175, Rayburn House Office Building, Hon. Duncan Hunter 
[chairman of the subcommittee] presiding.
    Present: Representatives Hunter, Kline, Platts, Foxx, 
Kildee, Scott, McCarthy, Davis, and Woolsey.
    Staff present: Katherine Bathgate, Deputy Press Secretary; 
James Bergeron, Director of Education and Human Services 
Policy; Heather Couri, Deputy Director of Education and Human 
Services Policy; Lindsay Fryer, Professional Staff Member; 
Krisann Pearce, General Counsel; Mandy Schaumburg, Education 
and Human Services Oversight Counsel; Dan Shorts, Legislative 
Assistant; Alex Sollberger, Communications Director; Linda 
Stevens, Chief Clerk/Assistant to the General Counsel; Alissa 
Strawcutter, Deputy Clerk; Brad Thomas, Senior Education Policy 
Advisor; Tylease Alli, Minority Clerk; Kelly Broughan, Minority 
Staff Assistant; Jamie Fasteau, Minority Deputy Director of 
Education Policy; Ruth Friedman, Minority Director of Education 
Policy; Kara Marchione, Minority Senior Education Policy 
Advisor; Megan O'Reilly, Minority General Counsel; Julie 
Peller, Minority Deputy Staff Director; and Laura Schifter, 
Minority Senior Education and Disability Advisor.
    Chairman Hunter. Good morning. A quorum being present, now 
more than a few of us here, the subcommittee will come to 
order. Good morning, and welcome to today's subcommittee 
hearing.
    I would like to thank our witnesses for joining us today. 
We appreciate the opportunity to get your perspective on the 
importance of parental engagement.
    As a father, I know that my children don't stop learning 
just because the school day has ended. In fact, the majority of 
what they learn they learn at home with their mother and I.
    We have a responsibility as parents to continue to 
challenge our kids outside the classroom. Parents who make a 
concerted effort to promote reading, help with homework, and 
discuss school with their children can inspire a better overall 
education experience.
    We know increased parental engagement leads to higher grade 
point averages, better attendance, improved behavior and social 
skills, and a stronger interest in more challenging academic 
programs. Recognizing these positive results, many states are 
taking steps to ensure parents have additional opportunities to 
make decisions not only about where their children attend 
school but also about what happens during the school day.
    Over the last 2 decades we have seen a strong surge in 
state efforts to expand access to high-quality charter schools, 
which is something members on both sides of the aisle have 
supported. Not only do charters present an opportunity for 
parents to choose the school that best meets their children's 
needs, many of these schools also help parents learn to play a 
more active role in their children's coursework and classroom 
activities.
    Forty-one states and the District of Columbia have adopted 
laws to support charter schools. According to the National 
Alliance for Public Charter Schools there were more than 5,200 
charter schools in the 2010-2011 school year. Additionally, 
some states have begun lifting arbitrary caps on the allowable 
number of charter schools, helping more students access these 
innovative institutions.
    Like charter schools, private school scholarship programs 
also open doors to better education options. Here in 
Washington, the D.C. Opportunity Scholarship Program continues 
to help disadvantaged students in the nation's capital escape 
failing schools.
    The program is extremely successful, boasting a 91 percent 
graduation rate for scholarship students. Other states have 
adopted similar scholarship programs; roughly 81,000 students 
currently benefit from school scholarship programs underway in 
eight states, as well as D.C. and Douglas County, Colorado.
    Two years ago my home state of California gained national 
attention for approving the nation's first parent trigger law, 
which allows parents to spur reform in underperforming public 
schools. Parent trigger laws give parents the ability to force 
change at their child's school by replacing some of the 
school's faculty or even obtaining a scholarship for their 
child to attend a private school.
    In Compton, parents banded together to try and turn a 
struggling public elementary school into a charter school. 
Today, seven states have enacted their own distinct versions of 
a parent trigger law and more than 20 others have considered 
some variation of the law.
    The fight to improve our nation's education system cannot 
happen in Washington, D.C. alone. It is critical states 
continue to lead the charge by engaging parents and providing 
options in the local education system.
    I look forward to learning more about the state efforts to 
expand parental involvement and school choice options for our 
witnesses today, and I will now recognize my distinguished 
colleague, Dale Kildee, for his opening remarks.
    [The statement of Mr. Duncan follows:]

  Prepared Statement of Hon. Duncan Hunter, Chairman, Subcommittee on 
          Early Childhood, Elementary and Secondary Education

    As a father, I know my children don't stop learning just because 
the school day has ended. We have a responsibility as parents to 
continue to challenge our kids outside the classroom. Parents who make 
a concerted effort to promote reading, help with homework, and discuss 
school with their children can inspire a better overall education 
experience.
    We know increased parental engagement leads to higher grade point 
averages, better attendance, improved behavior and social skills, and a 
stronger interest in more challenging academic programs. Recognizing 
these positive results, many states are taking steps to ensure parents 
have additional opportunities to make decisions not only about where 
their children attend school, but also about what happens during the 
school day.
    Over the last two decades, we have seen a strong surge in state 
efforts to expand access to high-quality charter schools--which is 
something members on both sides of the aisle have supported. Not only 
do charters present an opportunity for parents to choose the school 
that best meets their children's unique needs, many of these schools 
also help parents learn to play a more active role in their children's 
coursework and classroom activities.
    Forty-one states and the District of Columbia have adopted laws to 
support charter schools. According to the National Alliance for Public 
Charter Schools, there were more than 5200 charter schools in the 2010-
2011 school year. Additionally, some states have begun lifting 
arbitrary caps on the allowable number of charter schools, helping more 
students access these innovative institutions.
    Like charter schools, private school scholarship programs also open 
doors to better education options. Here in Washington, the D.C. 
Opportunity Scholarship Program continues to help disadvantaged 
students in the nation's capital escape failing schools. The program is 
extremely successful, boasting a 91 percent graduation rate for 
scholarship students. Other states have adopted similar scholarship 
programs; roughly 81,000 students currently benefit from school 
scholarship programs underway in eight states, as well as D.C. and 
Douglas County, Colorado.
    Two years ago, my home state of California gained national 
attention for approving the nation's first ``parent trigger'' law, 
which allows parents to spur reform in underperforming public schools. 
Parent trigger laws give parents the ability to force change at their 
child's school by replacing some of a school's faculty, or even 
obtaining a scholarship for their child to attend a private school. In 
Compton, parents banded together to try to turn a struggling public 
elementary school into a charter school. Today, seven states have 
enacted their own distinct versions of a parent trigger law, and more 
than 20 others have considered some variation of the law.
    The fight to improve our nation's education system cannot happen in 
Washington, D.C. alone. It is critical states continue to lead the 
charge by engaging parents and providing options in the local education 
system. I look forward to learning more about state efforts to expand 
parental involvement and school choice options from our witnesses 
today.
                                 ______
                                 
    Mr. Kildee. Thank you very much, Mr. Chairman.
    I also want to thank our witness panel for their 
participation in today's hearing.
    I believe parent engagement is an important part of 
education reform. I hope your insights bring us closer to our 
goal of providing a high-quality education for all students.
    I can recall as a teacher at a PTA meeting or similar group 
that I grew as a teacher by talking to the parents. Parents 
have a lot of wisdom and they certainly know their own child 
very well--some more than others, but it is very important to 
engage the parents and learn from the parents what might be 
more helpful for their children.
    While the American education system is one of the best in 
the world, the status quo is no longer acceptable. We must 
prepare our students to compete in a mobile society and a 
global economy.
    This preparation begins at home. A parent is a child's 
first and best teacher.
    I can recall, actually myself, learning how to spell before 
I went to school from my mother, who had an eighth grade 
education. But there was another element there that the school 
sometimes can touch upon and use.
    Research shows that when families are engaged in their 
child's education students are more likely to succeed in 
school. In order to effectively engage, parents must have 
access to meaningful information and data about their child's 
academic achievement.
    Additionally, parents should be able to play an active 
decision-making role within a school. They should be informed 
about turnaround efforts in failing schools and be able to 
provide input and feedback.
    Parent engagement is about more than school choice. Efforts 
to increase the availability of charter schools or to expand 
voucher programs are not guaranteed to result in stronger 
parent engagement or increased student outcomes.
    Charter schools are not a real choice for some families, 
and in some places, for most families. They operate in only 40 
states, so there is nothing like that in the other 10 states, 
so--and those who do exist are often located solely in urban 
school districts. That is quite the case in Michigan.
    Vouchers divert funding away from public schools and have 
failed to demonstrate increased parent engagement or student 
achievement. As we explore strategies for comprehensive school 
reform, including parent engagement, we should never lose sight 
of our commitment to equal access for all students, not just 
those who receive a voucher or attend a charter school.
    I want to thank the chairman again for calling today's 
hearing. I look forward to this discussion.
    And I yield back, Mr. Chairman.
    [The statement of Mr. Kildee follows:]

Prepared Statement of Hon. Dale E. Kildee, Ranking Member, Subcommittee 
         on Early Childhood, Elementary and Secondary Education

    Thank you Mr. Chairman.
    I also want to thank our witness panel for their participation in 
today's hearing. I believe parent engagement is an important part of 
education reform. I hope your insights bring us closer to our goal of 
providing a high quality education for all students.
    While the American education system is one of the best in the 
world, the status quo is no longer acceptable. We must prepare our 
students to compete in a mobile society and global economy.
    This preparation begins at home. A parent is a child's first and 
best teacher. We must empower parents to engage in their child's 
education.
    Research shows that when families are engaged in their child's 
education, students are more likely to succeed in school.
    In order to effectively engage, parents must have access to 
meaningful information and data about their child's academic 
achievement.
    Additionally, parents should be able to play an active decision-
making role within a school. They should be informed about turnaround 
efforts in failing schools and be able to provide input and feedback.
    Parent engagement is about more than school choice.
    Efforts to increase the availability of charter schools or to 
expand voucher programs are not guaranteed to result in stronger parent 
engagement or increased student outcomes.
    Charter schools are not real choice for most families around the 
country. They operate in only 40 states and are often located solely in 
urban school districts.
    Vouchers divert funding away from public schools and have failed to 
demonstrate an increase in parent engagement or student achievement.
    As we explore strategies for comprehensive school reform, including 
parent engagement, we should never lose sight of our commitment to 
equal access for all students. Not just those who receive a voucher or 
attend a charter school.
    I want to thank the Chairman for calling today's hearing, and I 
look forward to the discussion. I yield back.
                                 ______
                                 
    Chairman Hunter. Thank the ranking member.
    Pursuant to committee rule 7(c) all subcommittee members 
will be permitted to submit written statements to be included 
in the permanent hearing record, and without objection the 
hearing record will remain open for 14 days to allow 
statements, questions for the record, and other extraneous 
material referenced during the hearing to be submitted in the 
official hearing record.
    It is now my pleasure to introduce the distinguished panel 
of witnesses. Number one, first, the Honorable Kevin Chavous is 
a founding board member of the senior advisor--and senior 
advisor to the American Federation for Children. He heads the 
Chavous Group, an education consulting firm. He has served as a 
member of the Council of the District of Columbia and chair of 
the Council's Education Committee, where he helped shepherd the 
charter school movement into the nation's capital.
    Mr. Todd Ziebarth is the vice president for state advocacy 
and support at the National Alliance for Public Charter 
Schools. Mr. Ziebarth has helped numerous states enact laws to 
better support high-quality public charter schools. He has also 
authored many national and state level research and policy 
publications related to key charter school issues.
    Dr. Maria Fletcher is president of the New York State 
Parent Teacher Association. She is also an associate professor 
in the department of nursing at St. Joseph's College, in New 
York, and the coordinator of graduate programs where she 
teaches in both the undergraduate and graduate programs.
    And lastly, Ms. Gwendolyn--I will try to get this right--
Eaddy-Samuel is the president of the Connecticut Parents Union. 
She is also a founder of the State of Black Connecticut 
Alliance and the Meriden Kids Walk Safe Coalition. Ms. Eaddy-
Samuel, along with other parents and educational advocates, 
successfully introduced the so-called parent reform trigger law 
in Connecticut.
    Before I recognize each of you to provide your testimony 
let me briefly explain our lighting system. When you start you 
will have 5 minutes; it is green. When you have 1 minute left 
it is yellow. And when you are out of time it turns red, at 
which point I would ask you to wrap up your remarks as best as 
you are able.
    After everyone has testified members will each have 5 
minutes to ask questions of you, the panel.
    I would now like to recognize Mr. Chavous for 5 minutes?

        STATEMENT OF HON. KEVIN CHAVOUS, SENIOR ADVISOR,
                AMERICAN FEDERATION FOR CHILDREN

    Mr. Chavous. Thank you very much, Chairman Hunter, Ranking 
Member Kildee, and members of the committee, particularly 
Congressman Scott, who I have known for many years.
    Good to see you again. I knew you when I had hair and yours 
was a different color, let's say.
    Thank you for the invitation to testify today. As a long-
time supporter of parental choice and empowerment I am pleased 
that Congress is interested in delving deeper into this issue. 
I do have some prepared remarks that you have for the record 
and I will summarize them and then I look forward to the 
questions.
    As you mentioned, I am a founding member and senior advisor 
to--founding board member of the American Federation for 
Children, which is the nation's leading advocacy organization 
promoting parental school choice. AFC works to promote the 
benefits of and the need for school choice via vouchers or 
opportunity scholarship, scholarship tax credits, and education 
savings account programs.
    We also strongly support all forms of parental choice, 
including public school choice, charter schools, and virtual 
schools, homeschooling, magnet schools--anything that is going 
to help a child learn, we support them.
    Ultimately, we seek to advance public policy that empowers 
parents, particularly those low-income families, so that they 
can choose the education that they determine is best for their 
children. As a former member of the Council of the District of 
Columbia and chair of the Council's Education Committee I was 
at the forefront of the growth of the charter school movement 
here in the District of Columbia, which now numbers over 40 
percent of our public school kids being in charter schools, as 
well as the D.C. Opportunity Scholarship program, a voucher 
program that allows low-income parents to choose the school 
that best fits for them.
    Parental choice, to me, is the very definition of parental 
engagement. Choice empowers parents to decide what educational 
delivery system, be it the traditional public school, charter 
school, or private school, best meets the specific needs of 
their child. Choice programs all across the country show that 
parental engagement via school choice improves educational 
outcomes for participating students, puts students in safer 
schools, and gives parents more satisfaction with their child's 
learning environment.
    This powerful form of parental engagement is catching on 
nationwide. The 2011 and 2012 state legislative sessions have 
given rise to a large crop of new private school choice 
programs in a diverse sampling of states. Seven new private 
school choice programs were enacted in 2011 and two additional 
were signed into law already this year.
    Fully one-third of the current 29 private school choice 
programs were enacted in the past year-and-a-half. Parents, 
education reformers, and state and local elected officials 
across the country are recognizing that parental choice makes 
sense for families in their states. One-third of the nation's 
state legislative chambers passed school choice legislation 
creating new programs and expanding existing ones over the past 
17 months.
    Allow me to share a couple of highlights before I end my 
testimony. I am proud to say that I was able to play a role in 
helping to enact the 2008 Student Scholarship for Educational 
Excellence Program, the voucher program in New Orleans for low-
income families and failing schools.
    Four consecutive studies assessing parental satisfaction 
showed remarkably consistent and high praise from parents with 
children in this program, and no fewer than 93 percent of 
parents continued to be satisfied or very satisfied with their 
child's voucher school. Just fewer than 2,000 students 
participate in the program, but recently this year the 
legislature expanded the program statewide, so up to 400,000 
students are eligible for this program beginning next year.
    But the successes in Louisiana were made possible in part 
because of the prior work in many other states around the 
country, and in my testimony you see me talk about the Florida 
Tax Credit program, which was enacted in 2001, in which nearly 
40,000 students participate. I am pleased to say that when this 
program was up for renewal a good portion of Democrats and 
Republicans supported that.
    In addition, as you know, much of my work over the past 7 
years has been related to the successful passage and 
implementation of the program here in D.C., the D.C. 
Opportunity Scholarship Program. And I am proud to say that we 
are seeing similar successful outcomes with those children.
    A 2010 study from the U.S. Department of Education's 
Institute on Educational Sciences found that the students who 
used the opportunity scholarship program here in D.C. had a 
graduation rate of 91 percent--21 percentage points higher than 
those who did not receive a scholarship. The D.C. voucher 
program is over 30 percent higher than the graduation rate of 
other D.C. public school students.
    In 2009 the study determined that the program boosted 
student reading scores as the use of this scholarship increased 
reading achievement by an extra 3.7 months learning over 3 
years. This program has been a success.
    Since I am running out of time I will end my testimony now 
and look forward to the questions, but I think that part of 
this testimony is not just about the numbers, and part of this 
hearing is not about the numbers. It is about putting a face on 
the numbers. And I think that for that I look forward to the 
questions and answers and follow up because I could share 
personal stories and vignettes of children who benefited from 
choice programs that otherwise would have been lost.
    [The statement of Mr. Chavous follows:]

      Prepared Statement of Hon. Kevin P. Chavous, Senior Advisor,
                    American Federation for Children

    Chairman Hunter, Ranking Member Kildee, and Members of the 
Subcommittee:
    Thank you for the invitation to testify today. As a long-time 
supporter of parental choice and empowerment, I am pleased that 
Congress is interested in delving deeper into this very important 
issue.
    I am a founding board member and senior advisor to the American 
Federation for Children (AFC), the nation's leading advocacy 
organization promoting school choice. AFC works to promote the benefits 
of--and the need for--school choice via vouchers, scholarship tax 
credits, and education savings account programs. We are also strong 
supporters of public school choice, charter schools, as well as virtual 
schools, homeschooling, and magnet schools. Ultimately, we seek to 
advance public policy that empowers parents, particularly those in low 
income families, to choose the education they determine is best for 
their children. As a former member of the Council of the District of 
Columbia and Chair of the Council's Education Committee, I was at the 
forefront of the growth of the charter school sector here in D.C., as 
well as the D.C. Opportunity Scholarship program, a voucher program 
that allows low-income parents to choose the school that best fits 
their child's needs.
    Parental choice is the very definition of parental engagement. 
Choice empowers parents to decide what educational delivery system--be 
it traditional public school, charter school, or private school--best 
meets the specific needs of their child. Choice programs all across the 
country show that parental engagement via school choice improves 
educational outcomes for participating students, puts students in safer 
schools, and gives parents more satisfaction with their child's 
learning environments.
    This powerful form of parental engagement is catching on in states 
nationwide. The 2011 and 2012 state legislative sessions have given 
rise to a large crop of new private school choice programs in a diverse 
sampling of states. Seven new private school choice programs were 
enacted in 2011, and two additional programs were signed into law 
already this year. Fully one third of the current 29 private school 
choice programs were enacted in the past year and a half. Parents, 
education reformers, and state and local elected officials across the 
country are recognizing that parental choice makes sense for families 
in their states. One third of the nation's state legislative chambers 
passed school choice legislation creating new programs and expanding 
existing ones over the past 17 months.
    Allow me to share a few highlights about just a few of the many 
private school choice programs operating today:
Louisiana
    I am proud to say that I was able to play a role in securing the 
2008 enactment of the Student Scholarships for Educational Excellence 
Program, a voucher program in New Orleans for low-income families in 
failing schools. Four consecutive studies assessing parental 
satisfaction showed remarkably consistent and high praise from parents 
with children enrolled in the program, as no fewer than 93 percent of 
parents continued to be ``satisfied'' or ``very satisfied'' with their 
child's voucher school.
    Just fewer than 2,000 students participate in that program, but 
now, thanks to recent action by the state legislature and the governor, 
the highly-successful program has been expanded to the rest of the 
state. Our work with key legislators and the substantial grassroots 
groundwork done over a period of several years has resulted in making 
nearly 400,000 students eligible for the statewide program beginning 
next year, thanks to the strong bipartisan majority that approved the 
voucher expansion last month.
Florida Tax Credit Scholarship
    But the successes in Louisiana were made possible in part because 
of the prior work in many other states around the country. Florida's 
Tax Credit Scholarship was enacted in 2001 and today serves nearly 
40,000 students statewide. Thanks to donations from businesses and 
corporations, a nonprofit organization can provide scholarships for 
children in low-income families to attend the private school of their 
parents' choice. Students in the program come from families with an 
average household income of just over $24,000, and over half of the 
participants are from single parent households. Some 34 percent of 
participants are African-American and another 34 percent are Hispanic.
    The results have shown the program to be a resounding success. A 
state-commissioned researcher at Northwestern University found that 
scholarship students tended to be among the lowest-performing students 
in their prior public school, but once in the program they performed 
just as well or better on academic assessments than students 
nationally. It is important to note that these national comparisons 
pertain to all students nationally, and not just low-income students. 
In addition, the same researcher conducted another state sanctioned 
study that showed that the Florida program led to standardized test 
score gains in the public schools most likely to lose students to 
private schools. Through parental engagement for the state's most 
disadvantaged families, we are seeing improved academic outcomes for 
everyone. It's a reality that transcends party lines and ideological 
divides, as just last year, we saw 46 percent of the Florida Democratic 
legislative caucus vote to dramatically expand the program.
DC Opportunity Scholarship Program
    Much of my work over the past seven years has been related to the 
successful passage and implementation of the program here in D.C., the 
D.C. Opportunity Scholarship Program. And I'm proud to say that we're 
seeing similarly successful outcomes here in our nation's capital. A 
2010 study from the U. S. Department of Education's Institute of 
Education Sciences found that students who used opportunity 
scholarships graduated at a rate of 91 percent, 21 percentage points 
higher than those interested in the program who did not receive a 
scholarship. The D.C. voucher participant graduation rate is over 30 
percent higher than the graduation rate of students in D.C. Public 
Schools. In 2009, the study determined that the program boosted student 
reading scores, as the use of a scholarship increased reading 
achievement by an extra 3.7 months of learning over three years. This 
program is truly an example of parents being intimately involved in 
their children's education and the long-term positive effects it can 
have on those children's lives. In fact, four consecutive studies from 
Georgetown University and the University of Arkansas found that D.C. 
parents were very satisfied, more involved in their children's 
education, and becoming savvy educational consumers.
Milwaukee Parental Choice Program
    In developing the D.C. Opportunity Scholarship Program, much 
inspiration came from the nation's oldest and largest voucher program, 
the Milwaukee Parental Choice Program. Enacted in 1990, it has grown 
from serving 337 students in its first year to now having more than 
23,000 participating students during the 2011-12 school year. This form 
of parental empowerment in Milwaukee has also resulted in positive 
educational outcomes for participating students. A 2012 ``gold 
standard'' evaluation found that the on-time graduation rate for 
students in the Milwaukee Parental Choice Program (MPCP) was 7 
percentage points higher than the graduation rate of students in the 
Milwaukee Public Schools (MPS). The study also found that students 
participating in the Milwaukee voucher program are more likely than 
their public school peers to enroll in a four-year college and persist 
in college. The University of Arkansas researchers that have evaluated 
the program every year since 2008 examined ``virtually every possible 
way that school choice could systematically affect people, schools, and 
neighborhoods in Milwaukee and found no evidence of any harmful effects 
of choice.''
    Let me share with you an example of how parental involvement is 
encouraged by private schools participating in the Milwaukee Parental 
Choice Program. One participating school, a faith-based elementary 
school, excels at providing opportunities for parents to get involved. 
At this school the parent attendance rate at parent teacher conferences 
is typically 100 percent. Parents are encouraged to get involved with 
school life, for example, by volunteering for lunchroom duty, 
supervising student clubs, assisting in the school library, helping to 
organize fundraisers such as the school auction, or serving on an 
advisory board known as the Education Committee. Parent volunteer hours 
are incentivized but not required. According to the principal of this 
school these opportunities for parent involvement all contribute to the 
development of a strong school culture that fosters academic growth.
Arizona's Education Savings Accounts
    But if the aforementioned programs have done wonders to increase 
parental engagement, a new program enacted last year in Arizona has 
truly shifted the power of educational decision-making back into the 
hands of the parents. Education Savings Accounts (ESAs) were enacted in 
Arizona last year and will likely be seriously considered by other 
states in the future. These programs create personal accounts that 
store a child's state education dollars. These funds can be used for a 
variety of educational options, including private school tuition and 
fees, textbooks, tutoring, and even future college tuition payments. 
With ESAs, it is truly the parent who determines how state funding is 
spent for their children's education.
    The first such program, Arizona's Empowerment Scholarship Accounts, 
is in its very first year of implementation. This particular program is 
tailored to students who have a disability or who are eligible to 
receive special education services from a school district under state 
law. With this program, 90 percent of state funding for each qualified 
student is deposited in an account that the student's parents control. 
The overall amount takes into account each child's grade and 
disability. If there is leftover money in a child's account after high 
school, the funds can be used for postsecondary education. Nearly 150 
students participated in the first year of the program, and the Arizona 
legislature recently passed a bill that expands eligibility for ESAs to 
students in D and F schools, children of active duty military, and 
children who have been in foster care and have either been adopted or 
permanently placed.
    In closing, I would like to reiterate that there is now a wealth of 
evidence, from multiple scientifically valid studies to parental 
satisfaction rates to the personal testimony of the thousands of 
parents I've encountered across the country that shows without a doubt 
that private school choice leads to positive educational outcomes for 
students. The reason is that parents are often best suited to choose 
the schooling environment that best meets their child's needs. Parents 
across the country deserve the option of participating in the most 
powerful form of parental engagement: choosing where their child 
attends school every day.
    States are increasingly recognizing this, as evidenced by the large 
number of new and expanded programs all over the country. No one knows 
an individual child and his or her learning styles better than a 
parent. We owe it to every parent to provide them with the tools that 
will allow their child to succeed. Through parental choice and expanded 
educational options nationwide, we can work towards finally living up 
to our promise to give children all across America access to the 
quality education they deserve.
                                 ______
                                 
    Chairman Hunter. Thank you, Mr. Chavous.
    And I would now like to recognize Ms. Eaddy-Samuel for 5 
minutes?
    Could you turn on your microphone first? Thank you.

        STATEMENT OF GWENDOLYN EADDY-SAMUEL, PRESIDENT,
                   CONNECTICUT PARENTS UNION

    Ms. Eaddy-Samuel. Okay. We are good with directives.
    Good morning, Chairman Hunter, Ranking Member Minority--
Ranking Minority Member Kildee, committee members, and 
distinguished fellow panelists--and for any moms up there, 
happy belated Mom's Day. My name is Gwendolyn Samuel, and first 
and foremost I am a parent. I want us to be very clear: I am 
the consumer. My child is the consumer of the educational 
systems that we are discussing today.
    I am a proud Head Start alumni, so Head Start works and I 
am clearly a product of it, and the founder of the Connecticut 
Parents Union, a membership association established to connect 
parents, guardians, and families with the resources and 
supports necessary to effectively advocate for the educational 
rights of children through shared decision-making, parent 
choice, equitable resources, fiscal responsible spending, and 
access to effective school boards, principals, and teachers.
    And I want us to be very clear: I founded the Parents Union 
based on my experience when I introduced the parent trigger in 
Connecticut. I have never seen so much resistance against 
parents, and grandparents, and surrogate parents, and guardians 
of children who only want the best for their children.
    So I want to be clear, when I just say choice I don't think 
charters; I think of choosing--having the power to choose what 
is in the best interest of my children. And that could be 
traditional, it could be charter, it could be magnet, 
preschool, school readiness. I just want what is best for my 
kids, just like other parents across the country.
    I really want to thank you for having this real talk, 
because this will be real talk. And for this conversation to be 
successful we need to have it in real time. What is the state 
of education in America? What is the state of education in my 
great state of Connecticut?
    Because at the bottom line parent and family engagement is 
critical. And when I looked up engagement it means to enter 
into a pact or an agreement. So as a parent I just want to 
enter in an agreement with teachers, and educators, and 
administrators, and lawmakers, to ensure that at the end of the 
day you are putting the needs of children first. Because 
parents and families and communities are a child's first 
teacher, so whether you like the color of my skin or the size 
of my waistline or my socioeconomics, at the end of the day and 
the beginning of the day and the middle of the day I am still 
responsible for my child's overall well-being.
    Children do not vote, they don't sign medical release 
forms, nor do the children--nor me, as the parent--sign the 
school contract that will govern their educational experience. 
Children have the most to lose--and I want to emphasize that--
children have the most to lose when parents are forced to keep 
children in low-performing schools, because when children lose 
access to a great education they lose access to the opportunity 
to be productive citizens, they lose access to experience maybe 
a good career or technical college experience because they 
don't have the skill sets to not only enter college but to 
manage to graduate from college.
    And, of course, it has an economic impact on us because we 
can't stabilize the economy because you don't have a workforce 
to draw from. And I tell my kids all day, ``You have to get a 
good education because when I become a senior you need to be 
able to handle the affairs and I don't need someone that 
doesn't know how to do math, right?'' So I make it very clear: 
There is a self-interest for parents of why we are here.
    In 2010 I introduced the Parent Trigger Law. In January 
2006--2010 I got an e-mail, and the e-mail said, ``Parents Gain 
Power in California.'' This is like 1 o'clock in the morning. I 
am in, right? I said, ``Whatever this is I want it,'' because I 
live in Connecticut, which has the worst achievement gap in the 
country. For black males, eight out of 10 of them have a better 
chance of going to prison than college. Connecticut pays over 
$41,000 per inmate and on average $15,000 per pupil for 
students.
    So when I heard about this law I am saying, ``Well, we have 
got the worst achievement gap. This sounds like something good, 
so let's bring it to lawmakers and to communities.'' When I 
introduced it to lawmakers some lawmakers said, ``Gwen, you are 
going to make me lose my career.'' Some were saying, ``This is 
going to cause the state to go crazy,'' and it did.
    And I couldn't understand what was the problem with me 
having access to the tables to ensure better outcomes for my 
children. And so to do that we have to work together. And as I 
always say, as long as you have my child we are partners and 
joined at the hip.
    So I introduced the parent trigger. Fast forward, we have--
we created a more collaborative approach where it has teachers, 
students, principals, a non-voting principal. But the only 
challenges with it, you couldn't do anything with it until 3 
years, and no child should have to languish in low-performing 
schools for 3 years for us to do something about it.
    So that is the only downside to having the parent trigger, 
and when I heard that we were discussing it, Chairman Hunter 
and Congressman Kildee, I am just grateful. Parents from across 
the country are tuning in today because they want to hear what 
are we going to say to ensure that their children have access 
to great education.
    Thank you.
    [The statement of Ms. Eaddy-Samuel follows:]

         Prepared Statement of Gwendolyn Eaddy-Samuel, Parent,
                Founder of the Connecticut Parents Union

    Good Morning Chairman Hunter, Ranking Minority Member Kildee, 
committee members, and distinguished fellow panelists. I am honored to 
participate in this conversation about the vital role that parent and 
family engagement should play in improving our education system to 
ensure that all children have equitable access to high quality 
educational options, and to help our country become more economically 
stable and just.
    My name is Gwendolyn Eaddy-Samuel. First and foremost, I am a 
parent of two children in Connecticut public schools. I am a proud Head 
Start Alumna. I am the Founder of the CT Parents Union (CTPU), a 
membership association established to connect parents, guardians and 
families with the resources and support necessary to effectively 
advocate for the educational rights of children through shared decision 
making, parent choice, equitable resources, fiscally responsible 
spending, and access to effective school boards, principals and 
teachers.
    In 2010, I was part of a coalition that introduced a version of the 
so called ``Parent Trigger'' law to Connecticut. Our version of the 
Parent Trigger law allows parents to make recommendations about 
governance changes to reform consistently low-performing schools. The 
downside to our version of the parent trigger law is that the details 
were developed in closed-door sessions that deliberately excluded 
parent groups. As a result, governance reforms can be too-easily 
delayed and watered down, leaving students trapped in failing schools.
    In my testimony today, I want to make three points. First, I want 
to be clear about the problem. Second, I want to dispel some myths 
about parents and their engagement. And third, I want to be clear about 
the solution.
    First, let's talk about the real problem.
    Using my great state as an example: an analysis of the State of 
Connecticut using almost any indicator of socio-economic progress 
quickly reveals stark contradictions in the opportunities available to 
its residents. Connecticut, one of the richest states in the nation, is 
also home to some of the nation's poorest cities. Our state is home to 
some of the most prestigious schools in the nation, yet even our low-
performing schools underperform low-performing schools elsewhere in the 
country. As a result, our state has the widest academic achievement gap 
in the nation, observable between rich and poor students, and between 
students of different races. The socio-economically disadvantaged in 
Connecticut's urban cities tend to be people of color, trapped in 
schools that persistently fail to meet their need for a quality 
education.
    As an example, a male who fails to graduate from high school is 47 
times more likely to spend time in prison than a peer who finishes 
college. More than 40% of Black children do not graduate from high 
school. And prison, at least in Connecticut, costs us more than $50,000 
per inmate--more than three times what we spend on students in schools. 
At a time when other countries are elevating their performance, and 
when the economy is requiring greater skills, we are not investing 
wisely if we fail to meet the needs of our children.
    Second, let's dispel some myths about parents.
    One myth is that these problems are all the parents' fault. When my 
state's Governor, Dan Malloy, took a tour throughout Connecticut to 
promote education reform, some local labor leaders greeted him with 
white papers and other arguments that parents ``are in denial and blame 
the school or the teacher for their child's behavior.''
    Let's take care of this myth that it's the ``parents fault'' once 
and for all. What actually happens when parents try to get involved in 
their children's schools? What actually happens is that the bureaucracy 
shuts them down.
    <bullet> Take the example of Kelley Williams-Bolar, an Ohio mom who 
I arranged to come to Connecticut to address a group of parents. Ms. 
Williams-Bolar tried to get her children into a safer school than the 
one that existed in her neighborhood. She could not afford to move to a 
better school district, so she simply lied and said that she lived in a 
better district, so that her children could go to that safer school. 
How did we respond to this parent who wanted to send her kids to a 
better school? She was sent to jail.
    <bullet> Or what about when parent groups tried to organize to get 
more involved in the legislative process in Connecticut back in 2010? I 
mentioned a moment ago that the Parent Trigger policy was weaker than 
it should have been because parents groups were excluded. In fact, if 
you look at a PowerPoint that was presented at a National Conference by 
the American Federation of Teachers in Connecticut, you'll see that 
excluding parent groups was a deliberate strategy. In all fairness to 
AFT, some Connecticut parents were able to meet with union leadership; 
they apologized and removed the document from their website.
    <bullet> Or, coming back to Connecticut, look at the Hartford area, 
the second poorest city in the country and the city with some of the 
lowest performing schools in the state. Nearly 16,000 students entered 
the Greater Hartford Regional School Choice lottery this year to get 
into good magnet or charter schools--but more than 10,000 of them were 
rejected. These are thousands and thousands of parents, just in 
Hartford, who are taking the time to do right by their kids.
    As parents, we are legally required to send our kids to schools and 
we are legally required to pay for those schools with our taxes. So we 
are compelled to provide the money and the children but often have very 
little say in the outcomes. These types of experiences affect the 
parents' will to become more engaged within school environments. Many 
parents feel no matter how hard they try to help improve educational 
outcomes for their children, they will face resistance.
    Another myth is that parents and teachers are adversaries. This is 
a myth. Teachers have many different points of view, and too often you 
only hear one point of view. Many teachers celebrate actively engaged 
parents. You will hear a lot of educators who welcome parent engagement 
and parent choice. And to be clear, as a parent, I always celebrate 
great teachers who will help my children learn.
    Finally, let's talk about the solution.
    Part of the solution is adapting responsive public policy. In my 
home state of Connecticut, we saw the beginnings of ``best practice'' 
solutions. We had a Governor propose education reforms. These reforms 
were just a start--I'll get to that in a minute--but they were a good 
start.
    Those opposed to meaningful education reform did the exact same 
thing that they did in 2010 to attack Parent empowerment reform--they 
had closed-door meetings with legislators to try to water down the 
bill. And when this bill came out of committee, it was loaded down with 
loopholes and exceptions that would have made reform limited. In my 
opinion, this was about to be another story of how we failed to make 
things better for the neediest children.
    But a funny thing happened. Parents became more active. Parents 
started contacting their legislators and calling them and writing them 
and talking about what they needed. Leaders from the African American 
faith community spoke up, demanding reform. The Governor Malloy 
provided air cover for parents, making it clear he would veto this bill 
if it kept all these loopholes. And, crucially, the Black and Puerto 
Rican Caucus in the Connecticut State Legislature came together. This 
is a part-time legislature, but they worked long hours to read this 
entire bill. They debated, and they listened to parents, and they went 
to their leadership to demand that most of those loopholes get stripped 
away. And pro-reform teachers spoke up, too. This clearly demonstrated 
that the public will exist to do right by children.
    So, what do we need to do in Connecticut and elsewhere?
    What we need is choice. Here is a list of things that all states 
must do to create more high-quality school options and relevant 
information for all students:
    <bullet> State law must ensure that parents receive meaningful 
information about their schools and teachers, including a letter grade 
or some indicator easily identified by parents.
    <bullet> Any school that accepts taxpayer funding for students--
traditional, magnet, charter, or private--must submit to state 
financial review and student achievement review.
    <bullet> States or districts should implement a disclosure rule 
granting parents knowledge of a teacher's track record regarding 
student achievement and allow parents to access an alternative, 
effective classroom.
    <bullet> While Parent Trigger laws may vary from state to state, 
laws need to be put in places that allow parents to ``trigger'' a 
school turnaround when a school systemically fails to meet the needs of 
children. State law must be constructed to ensure that eligible federal 
dollars can be used to help fund the turnaround. Crucially, parents 
must be allowed to exercise this option without harassment or undue 
delay.
    <bullet> Subject to these guidelines, state law and district policy 
should make high-quality choices available to students through the 
following tools:
    All students should be funded equally, regardless of the type of 
school they attend, so long as the schools prove results in a timely 
manner.
    Low-income students, children in foster care, homeless children and 
the neediest children should have access to public scholarships to 
attend high-quality public and private schools, so long as those 
private schools are willing to accept public oversight for safety, 
academic performance, and financial integrity.
    In collaboration with the State, charter schools with proven 
academic results should be encouraged to expand. Such schools should 
not face any numerical caps, financial disadvantage, or arbitrary and 
burdensome red tape. Instead, they should receive appropriate fast-
track approvals, access to taxpayer-funded facilities (based on 
community need), and the ability to leverage public-private 
partnerships and funding.
    Charter authorizers should be willing to approve new charter 
schools on a provisional basis, allowing them to demonstrate results, 
but moving quickly if they do not improve performance.
    Districts should be required to pass on all of the approved per-
pupil funding to school providers chosen by parents, with the exception 
of authorizer fees to manage accountability.
    Low-performing schools must not be tolerated. The state must 
provide a clear mechanism to turn around low-performing schools--
regardless of whether those schools are traditional public schools, 
charter schools, or private schools receiving public scholarship 
students. Any school with a sustained record of failure should not 
continue to receive public funding.
    These reforms, together, will create the conditions that will allow 
parents to effectively engage with teachers and school leaders to 
create better outcomes for all children.
    Most school districts across Connecticut and abroad are facing the 
impacts of this education and economic crisis. We will only improve 
outcomes if we build effective partnerships among parents and schools; 
spend our resources effectively; and provide meaningful high-quality 
choices for families. This is a much more realistic and just choice 
than burdening our society with failed schools, overcrowded prison and 
juvenile systems, and an overreliance on safety nets and social 
services.
    In closing, it is immoral for children to be consigned to 
systemically low performing public schools.
                                 ______
                                 
    Chairman Hunter. Thank you, ma'am.
    Now Dr. Fletcher is recognized for 5 minutes.

         STATEMENT OF DR. MARIA A. FLETCHER, PRESIDENT,
                       NEW YORK STATE PTA

    Ms. Fletcher. Good morning. Chairman Hunter, Ranking Member 
Kildee, subcommittee members, and fellow distinguished 
panelists, I am honored to speak before you today on behalf of 
the more than 5 million members of the National Parent Teacher 
Association. I am Maria Fletcher, president of the New York 
State PTA, comprising nearly 350,000 members working to improve 
educational outcomes for children in New York State.
    PTA has been working to improve the education of our 
nation's children for more than 115 years. At the state and 
local levels PTA promotes systemic school-parent collaboration 
to increase student achievement in all schools, even those that 
don't have a PTA.
    I first became involved in education more than 30 years ago 
as a parent of a new kindergartener. As my children progressed 
through school my husband and I became increasingly frustrated 
with the limited parent-teacher interaction and lack of student 
and school data made available to parents. I remember walking 
out of parent-teacher conferences having been told, ``Brian is 
doing well,'' with no information on what ``well'' meant or how 
we, as parents, could play a role in continuing his academic 
success.
    I thought about parents of children who may not be 
performing as well as my son. What about parents of students 
with learning disabilities, or parents of students attending 
lower-performing schools in less affluent districts? This 
prompted me to not only advocate for my child but also all 
children, first through involvement in PTA and later as a 
member of my local school board.
    Access to performance information wasn't the norm, and 
while we have advanced in the use of data to empower parents we 
must remember that there is only value if the available data is 
high-quality, understandable, and actionable for parents and 
families. When parents are not equipped with meaningful 
information, transparency, regardless of good intent, achieves 
limited results.
    Parents and families must be equipped with the tools to 
engage in individual student learning and whole-school reform. 
Parents must be equipped with an understanding of educational 
delivery structures as they exist to serve their children. All 
parents must know how to advocate for their children, whether 
that be by exercising school choice options or collaborating to 
strengthen the school that their child currently attends.
    Until 2010 I served as a local school board member in 
Valley Stream, New York. Fellow board members and I worked to 
ensure that every school in our district included parent 
representation in decision-making processes.
    Most importantly, the school-level practice served to build 
relational trust since parent representation was identified and 
selected by parent peers, not by school or district personnel. 
This systemic collaboration allowed the board to enter into 
decision-making with confidence that the parent voice had been 
integral to any recommendations considered.
    All children, regardless of their parents' educational 
attainment, socioeconomic status, or zip code, deserve a 
quality education. First and foremost, parents want to know 
that their neighborhood school is preparing students through 
quality instruction and a safe climate that is conducive to 
learning. Unfortunately, that is not the case in all of our 
public schools, and while PTA supports innovative, quality 
public school choice options, the reality is that choice for 
the sake of choice does not guarantee systemic or sustainable 
improvements.
    Research shows that when parents are effectively engaged 
student achievement increases and school climate improves. This 
is especially true with chronically low-performing schools. Yet 
all too often we discuss parent engagement through a narrow 
lens limited only to school choice.
    Public school choice is a good thing but choice shouldn't 
be viewed as the only engagement strategy. Perhaps we are 
asking the wrong question. Instead of seeking to empower 
parents by providing alternatives to their neighborhood school 
why aren't we empowering parents by engaging all stakeholders 
to ensure that every neighborhood school lives up to the 
quality promise we have made to educate all children?
    We should empower parents by preparing our teachers and 
leaders in research-based family engagement practices that have 
demonstrated positive effect on student achievement and school 
climate. We should empower parents with real, tangible tools to 
supplement school learning at home coupled with assessable, 
understandable, and actionable data that informs school 
instruction and learning.
    ``Your school is broken; send your child here instead,'' 
isn't tantamount to effectively engaging parents in education. 
This is especially true in areas where meaningful school choice 
isn't an option.
    New York State PTA, with New York PIRCs, is collaborating 
with our state educational agency to support family engagement 
as a catalyst for closing the achievement gap in Title 1 
schools. We are working to advance the New York State Board of 
Regents approved family engagement policies through focus on 
district-level family engagement quality indicators, teacher 
and leader professional development, and inclusion of 
culturally competent family engagement curriculum in higher 
education and professional certification programs.
    I understand the purpose of this hearing is to discuss 
local and state efforts. However, we believe federal leadership 
is important. We are especially thankful to Congresswoman 
McCarthy and Congressman Platts for their leadership on this 
issue via introduction of H.R. 1821, the Family Engagement in 
Education Act.
    While thankful for these efforts, including the provisions 
in their reauthorization, we urge the committee to consider 
further the role of research-based family engagement policies 
and programs. Without parents at the table both at school and 
at home reform that equips all public schools to provide world-
class education will not become a reality.
    Thank you for your time, and I welcome any questions.
    [The statement of Dr. Fletcher follows:]

       Prepared Statement of Maria A. Fletcher, Ph.D., President,
                           New York State PTA

    Chairman Hunter, Ranking Member Kildee, subcommittee members, and 
fellow distinguished panelists; I am honored to have the opportunity to 
speak before you today on behalf of the more than five million members 
of the National Parent Teacher Association (PTA) and to discuss the 
importance of meaningful family engagement in student learning and 
school success. With more than 24,000 local units, PTA flourishes in 
all 50 states, the District of Columbia, Puerto Rico, the U.S. Virgin 
Islands, and the Department of Defense schools in Europe and the 
Pacific. I speak to you today as the President of the New York State 
PTA, comprising nearly 350,000 members working to improve educational 
outcomes for children and families in New York State.
    Founded in 1897, PTA has been working to improve the education, 
health, and overall well-being of our nation's children for more than 
115 years. As the oldest and largest volunteer child advocacy 
association in the United States, PTA's legacy of influencing local, 
state, and federal policy has made an indelible impact in the lives of 
millions of children and families. This legacy includes the creation of 
kindergarten classes, a juvenile justice system, child labor laws, 
mandatory immunizations for school children, and continues today as PTA 
fights to ensure recognition of family engagement programs and 
practices as a vital component of sustainable education reforms and 
increased student achievement. The influence of PTA is most readily 
felt at the state and local levels, where the association works 
tirelessly to promote systemic, comprehensive, and meaningful school 
and district-parent collaboration to better serve all students; even in 
schools where no PTA has been formed. It is the local and state level 
work and experiences I am here to speak about today.
    I first became involved in education more than 30 years ago as an 
eager parent of a new kindergarten student in Valley Stream, New York. 
As my children progressed through school, my husband and I became 
increasingly frustrated with the limited parent-teacher interaction and 
poor quality of the information shared regarding our children's 
academic progression and the overall quality of our children's school. 
I remember walking out of the annual parent-teacher conference having 
been told ``Brian is doing well * * *'' with no additional information 
on what ``well'' meant or how we, as parents, could play a role in 
ensuring continued success. Were there areas for improvement? What was 
he learning? What were the expectations? What could we, as parents, be 
doing at home to build on classroom instruction during his out-of-
school time?
    I started thinking about the parents of children who may not be 
performing as well as my son Brian. What about the parents of students 
attending lower-performing schools in districts not as good as Valley 
Stream? This frustration prompted me to not only advocate for my child, 
but also for all children through involvement in PTA and later as a 
member of my local school board. Parents and families must be empowered 
with the tools to engage in not only individual student learning, but 
also school reform and improvement. Parents must be equipped with an 
understanding of educational delivery structures that exist to serve 
their children and community so they, too, can advocate for their 
children, whether that be by exercising school choice options or 
collaborating to strengthen the school their child attends. There was a 
time when access to performance information wasn't the norm; and while 
we've come a long way in our use of data to empower parent involvement 
in education, we must remember that there's only value if the available 
data is high quality, understandable and actionable for parents and 
families. As PTA has stated previously, when parents are not equipped 
with meaningful information, transparency, regardless of good intent, 
achieves limited results.
    For eleven years, I served as a Trustee of both the District 30 and 
Valley Stream Central High School Boards of Education. Fellow board 
members and I worked to ensure that all schools across our district 
included parent representation in decision-making processes dealing 
with everything from curriculum to student health and safety. Perhaps 
most importantly, this school-level practice served to build relational 
trust among parents and school leaders, with parent representation 
identified and selected by parent peers, not simply appointed by school 
personnel. While I no longer serve as school board member, the current 
superintendent has continued to encourage this practice, as well as 
instituted regular district-level conversations with PTA leadership 
from all schools. I can say that increased collaboration at the school 
and district level made my job as a school board trustee easier--
allowing me to enter into district-level decision-making with 
confidence that the parent voice was integral to moving recommendations 
forward.
    We all agree that children, regardless of their parents' 
educational attainment, socioeconomic status, or zip code, deserve a 
quality education. But what I have truly come to realize through my 
involvement in the PTA is that all parents--despite all the barriers I 
have previously mentioned--also want to be the driving force in 
ensuring their children have a quality, world-class education. First 
and foremost, parents want to know that their neighborhood school is 
preparing students for college and career through quality instruction 
and a safe climate conducive to learning. Unfortunately, this is not 
the case in all public schools, and while PTA supports the introduction 
of innovative quality public school choice options that serve to 
increase student achievement, the reality is that choice for the sake 
of choice does not guarantee systemic or sustainable improvements to 
our nation's educational delivery system.
    More than forty years of research shows that when families and 
communities are effectively engaged in student learning and school 
improvement, student achievement increases. This is especially true of 
chronically low-performing schools. According to a longitudinal study 
of school turnaround efforts in Chicago public schools, family 
engagement is one of five necessary ingredients to sustainable reform 
and increased student achievement: as necessary as school leadership 
and curriculum alignment. The evidence is clear, yet all too often we 
discuss parent engagement through a narrowed lens limited only to 
school choice.
    Public school choice is a good thing--but choice shouldn't be 
viewed as an engagement strategy. Perhaps we're asking the wrong 
question--instead of asking how to empower parents by providing 
alternatives to their neighborhood school, why aren't we empowering 
parents by engaging all stakeholders to ensure that every neighborhood 
school lives up to the quality promise we've made to educate all 
students? All public schools--traditional, charter, magnet--must have 
the capacity to build and capitalize on effective school-family 
partnerships to increase student achievement.
    We should empower parents by preparing our teachers and leaders in 
research-based and culturally competent family engagement practices 
that have demonstrated positive impact on student achievement and 
school climate. We should empower parents with real, tangible tools to 
supplement student learning at home coupled with accessible, 
understandable, and actionable student and school data that serves to 
inform and support instruction and learning. ``Your school is broken--
send your child here instead'' isn't tantamount to effectively engaging 
parents in education. This is especially true in areas where meaningful 
school choice isn't a real feasibility--areas like remote rural New 
York State.
    I am proud to report that efforts to implement sustainable reforms 
by partnering with parents to make all schools great are currently 
underway in my home state of New York. Concerned with the 
sustainability of education reform implementation due to lack of 
stakeholder collaboration and understanding, Every Person Influences 
Children (EPIC) and Cornell Cooperative Extension, both former Parental 
Information and Resource Center (PIRC) grantees came together with NYS 
PTA. As a team collaborated with NYSED to develop the On the Same Page 
Summit: A NYS Summit for Family Engagement in Education to support 
systemic change in the New York State Educational System through 
strategic dialogue and action on family engagement as a catalyst for 
closing the achievement gap in Title I schools.
    As an outgrowth of the annual summit and in recognition of the role 
family engagement plays in student and school success, NYS is working 
to advance New York State's Board of Regents approved statewide family 
engagement policies. Specific areas of focus include:
    <bullet> Approval of family engagement quality indicators and 
assessment tool for Local Educational Agencies;
    <bullet> Teacher and school leader professional development in 
family engagement practices;
    <bullet> Implementation and replication of research-based 
strategies to engage diverse families; and
    <bullet> Inclusion of culturally-competent family engagement in 
higher education and professional certification programs.
    In New York State, while many parents are provided with public 
school choice options in addition to the neighborhood public school, we 
recognize the importance of building the capacity of all schools and 
families to meaningfully partner for the benefit of our students. 
Thankfully, NYSED recognizes the importance of providing local 
educational agencies with access to statewide support and technical 
assistance for local implementation of research-based, proven effective 
policies and programs to improve communication between schools and 
families. PTA is committed to improving parent understanding of school 
accountability and data, informing families of public school choice 
options, and empowering parents to support learning at home and in the 
community; all of which is necessary to maintain momentum and ensure 
sustainability of education reforms.
    I understand the purpose of this hearing is to discuss local and 
state efforts; however, PTA believes federal leadership is important to 
ensuring all districts and states are able to meaningfully partner with 
parents. We are especially thankful to Congresswoman McCarthy and 
Congressman Platts of this Committee for their leadership via 
introduction of H.R.1821, The Family Engagement in Education Act, 
legislation that encompasses recommendations to ensure sustainability 
of practice while allowing for and rewarding local flexibility. While 
thankful for the bipartisan attention that family engagement has 
garnered during the Elementary and Secondary Education Act (ESEA) 
reauthorization process, we strongly urge the Committee to further 
consider the role of research-based family engagement policies and 
programming that are both more effective and far-reaching than school 
choice as communicated through the provisions of H.R. 1821.
    I conclude with this thought--without parents at the table, both at 
school and at home, sustainable reforms that equip all public schools 
to provide a world-class education will not become a reality. PTA 
continues to advocate for prioritization of family engagement in 
education--and this is why I will continue to engage in this important 
work. Our nation's children and families deserve the benefits of 
quality family-school partnerships.
    I would like to again thank Chairman Hunter, Ranking Member Kildee, 
subcommittee members, and my fellow panelists for the opportunity to 
engage in a discussion on the question of how to meaningfully empower 
and partner with parents. Thank you and I would be happy to respond to 
any questions that you may have.
                                 ______
                                 
    Chairman Hunter. Thank you, Dr. Fletcher.
    I would like to recognize Mr. Ziebarth for 5 minutes.

STATEMENT OF TODD ZIEBARTH, VICE PRESIDENT, STATE ADVOCACY AND 
     SUPPORT, NATIONAL ALLIANCE FOR PUBLIC CHARTER SCHOOLS

    Mr. Ziebarth. Thank you. Good morning, Chairman Hunter and 
members of the subcommittee. Thank you for giving me the 
opportunity to address you today as you discuss how states are 
expanding parent and student educational options.
    My name is Todd Ziebarth. I am the vice president for state 
advocacy and support at the National Alliance for Public 
Charter Schools. The National Alliance is a nonprofit 
organization working to grow the number of high-quality public 
charter schools available to all families, particularly those 
who currently don't have access to high-quality public schools.
    There are currently 41 states and the District of Columbia 
that have charter laws on the books and there are over 5,600 
charters open serving more than 2 million kids. Annual growth 
in the public charter school movement is strong, with 400 to 
500 new charters opening each year and 150,000 to 200,000 new 
students enrolling in charters each year.
    At the same time that we are seeing such robust growth in 
the movement we know there is still a significant demand from 
parents and students that is not being met, as over 400,000 
students sit on charter school waiting lists across the 
country.
    One of the major reasons that we are seeing such healthy 
growth in the charter school movement is that many states are 
significantly strengthening their charter school laws in three 
areas. First, states are lifting their caps on growth, either 
partially or entirely. Over the past 2 years alone 12 states 
have done so. Most notably, North Carolina removed its cap of 
100 charter schools and Michigan phased out its cap on the 
number of charters that can be approved by public universities 
there.
    Second, states are taking steps to provide more equitable 
charter school funding and facilities support, which is 
especially critical given that charter students only receive 75 
percent of the funding that their traditional school 
counterparts get. Over the past 2 years alone 12 states have 
taken steps to remedy these student inequities.
    Of particular note, Indiana enacted legislation that 
created a charter school facility assistance program to make 
grants and loans available to charters. It appropriated $17 
million to this program and it required school districts to 
make vacant space available to charters to lease for $1 a year 
or to buy for $1.
    Third, states are strengthening their authorizing 
environments to improve charter accountability. Over the past 2 
years 13 states have done so. Most significantly, Hawaii, New 
Mexico, and Rhode Island have passed major quality control 
measures setting the stage for the future growth of high-
quality charters in these three states.
    In addition to the progress in these three areas we are 
also seeing increasingly strong efforts to enact charter laws 
in the states that don't have them. In fact, Maine enacted a 
charter law in 2011, becoming the 42nd jurisdiction that allows 
this innovative public school option. In the remaining nine 
states that have not yet enacted charter laws there is growing 
momentum to do so in Alabama, Kentucky, Montana, and 
Washington.
    As states have expanded charters through the actions I have 
discussed, public charter schools have, in turn, expanded the 
ways in which public education engages parents. First and 
foremost, charters have empowered parents to choose new public 
school options. Now, some parents, usually those of means, 
already have plenty of options.
    What is unique about charters, though, is that they have 
provided thousands of public school options to parents with 
more limited means, as 52 percent of charter student qualify 
for free and reduced-price lunch, as compared to 45 percent in 
traditional public schools. Many of these parents have had very 
limited options, if any, until charters.
    Charters have also created new kinds of partnerships with 
parents. At KIPP charter schools, for example, parents, as well 
as students and teachers, sign a learning pledge, called the 
``Commitment to Excellence,'' which ensures that all parties 
will do whatever it takes to help students learn. The 
Commitment and other similar agreements can serve as effective 
tools for schools to use as they establish expectations about 
the school and manage parent engagement in the school.
    In addition to such agreements, charters partner with 
parents in other unique ways, most notably by involving them in 
the decision-making and governance of the school. In some 
cases, parents serve as members of the charter school's 
governing board, playing a role in school-level governance not 
available to parents in a traditional district environment.
    Charters also engage parents by providing them services. 
For example, some charters offer GED, English language, college 
credit, and parenting classes to parents after hours.
    And lastly, some charters engage parents by conducting 
parent surveys to identify what activities parents would be 
willing to help out with and what skills they have that might 
benefit the school. Schools then use this information when they 
are looking to engage parents in specific activities at the 
school.
    In conclusion, we are encouraged that many states are 
significantly strengthening their charter laws to support high-
quality public charter school growth. These schools will not 
only provide more options to parents and students but they will 
also serve as laboratories of innovation to positively 
influence the larger traditional public school system in many 
areas, including parent engagement.
    Thank you again for the opportunity to present today, and I 
am happy to answer any questions you have at the appropriate 
time.
    [The statement of Mr. Ziebarth follows:]

Prepared Statement of Todd Ziebarth, Vice President, State Advocacy and 
         Support, National Alliance for Public Charter Schools

    Good morning Chairman Hunter and Members of the Subcommittee. Thank 
you for giving me the opportunity to address the Subcommittee today as 
it discusses how states are expanding parent and student educational 
options.
    My name is Todd Ziebarth. I am the Vice President of State Advocacy 
and Support at the National Alliance for Public Charter Schools. The 
National Alliance is a nonprofit organization working to grow the 
number of high-quality public charter schools available to all 
families, especially those who currently don't have access to good 
public schools. The National Alliance develops and advocates for 
improved public policies, provides assistance to state charter school 
associations and resource centers, and serves as the united voice for 
this large and diverse movement.
    Currently, 41 states and the District of Columbia have charter laws 
on the books. There are more than 5,600 charters open, serving over two 
million students. Annual growth in the public charter school movement 
is strong, with 400 to 500 new charters opening each year and 150,000 
to 200,000 new students enrolling in charters each year. At the same 
time we're seeing such robust growth, we know there is still a 
significant demand not being met, as over 400,000 students remain on 
charter waiting lists across the country.
    One of the major reasons that we're seeing such healthy growth in 
the public charter school movement is that many states are 
significantly strengthening their charter laws in three major areas.
    First, states are lifting their caps on charter growth--either 
partially or entirely. Over the past two years, 12 states have done so. 
Most notably, North Carolina eliminated its cap of 100 charter schools, 
Michigan phased out its cap on the number of charter schools that can 
be approved by public universities, and Indiana and Wisconsin removed 
their limits on virtual charter enrollment.
    Second, states are taking steps to provide more equitable charter 
school funding and facilities support, which is especially critical 
given that charter students only receive 75% of the funding that their 
traditional public school counterparts get. Over the past two years, 12 
states have done so. Of particular note, Indiana enacted legislation 
that creates a charter school facilities assistance program to make 
grants and loans to charter schools, appropriates $17 million to this 
program, and requires school districts to make vacant space available 
to public charter schools to lease for $1 a year or to buy for $1. 
Also, Texas enacted a law that allows state-authorized charter schools 
that have an investment grade rating and meet certain financial 
criteria to apply to have their bonds guaranteed by the Permanent 
School Fund.
    Third, states are strengthening their authorizing environments to 
improve charter accountability. Over the past two years, 13 states have 
done so. Most significantly, four states created new statewide charter 
boards, while Hawaii, New Mexico, and Rhode Island passed major quality 
control measures setting the stage for the future growth of high-
quality public charter schools in these states.\1\
---------------------------------------------------------------------------
    \1\ By ``quality control measures,'' we mean the following 
provisions: transparent charter application, review, and decision-
making processes; performance-based charter contracts; comprehensive 
charter school monitoring and data collection processes; and, clear 
processes for renewal, nonrenewal, and revocation decisions.
---------------------------------------------------------------------------
    In addition to the progress in the three areas of caps, funding and 
facilities support, and authorizing, we are seeing increasingly strong 
efforts to finally enact charter laws in the states that still don't 
have them. In fact, Maine enacted a charter law in 2011, becoming the 
42nd jurisdiction that allows this innovative public school option. In 
the remaining nine states that have not yet enacted charter laws, there 
is growing momentum to finally do so in Alabama, Kentucky, Montana, and 
Washington.
    As states have expanded public charter schools through the actions 
I've discussed, public charter schools have, in turn, expanded the ways 
in which public education engages parents in several ways.\2\
---------------------------------------------------------------------------
    \2\ A primary resource for this testimony's comments on parent 
engagement is Parent Involvement in Urban Charter Schools: A New 
Paradigm or the Status Quo? by Joanna Smith and Priscilla Wohlstetter, 
October 2009--http://www.vanderbilt.edu/schoolchoice/conference/papers/
Smith%20-Wohlstetter_COMPLETE.pdf
---------------------------------------------------------------------------
    First and foremost, charters have empowered parents to choose new 
public school options. Now some parents, usually those of means, 
already have plenty of options. What's unique about charters is that 
they've provided thousands of public school options to parents without 
means, as 52% of charter students quality for free and reduced price 
lunch (vs. 45% in traditional public schools). Many of these parents 
have had very limited options--if any--until now.
    Charters have also created new kinds of partnership with parents. 
At KIPP charter schools, for example, parents (as well as students and 
teachers) sign a learning pledge called the ``Commitment to 
Excellence,'' which ensures that all parties will do whatever it takes 
to help the student learn. Example items from the Commitment include:
    <bullet> We will make sure our child arrives at KIPP every day by 
7:25 a.m. (Monday-Friday) or boards a KIPP bus at the scheduled time.
    <bullet> We will always help our child in the best way we know how 
and we will do whatever it takes for him/her to learn. This also means 
that we will check our child's homework every night, let him/her call 
the teacher if there is a problem with the homework, and try to read 
with him/her every night.\3\
---------------------------------------------------------------------------
    \3\ To see a sample Commitment to Excellent from KIPP, see http://
www.kipp.org/files/dmfile/KIPP_Commitment_to_Excellence_Sample.pdf
---------------------------------------------------------------------------
    The Commitment and other similar agreements can serve as effective 
tools for schools to use as they establish expectations about the 
school and manage parent engagement in the school.
    In addition to such agreements, charters partner with parents in 
other unique ways, most notably by involving them in the decision-
making and governance of the school. In some cases, parents serve as 
members of the charter school's governing board, playing a role in 
school-level governance not available to parents in a traditional 
district environment, in which one central school board makes policy 
decisions for all of the schools in the district. This type of school-
level governance is mandated by law in six states, and utilized by 
choice in individual charter schools in many other states.
    Charters also engage parents by providing them services. For 
example, one charter school runs an employment office for parents, 
focusing on job opportunities for refugee parents with limited English 
skills. In addition to direct service provision, some schools offer 
GED, English-language, college-credit, and parenting classes for 
parents after hours.
    Another way that charters engage parents is by conducting parent 
surveys to identify what activities parents would be willing to help 
out with and what skills they had that might benefit the school. 
Schools then use this information when they are looking to engage 
parents in specific activities.
    In conclusion, we are encouraged that many states are significantly 
strengthening their charter laws to support high-quality public charter 
school growth. These schools will not only provide more options to 
parents and students, but they will also serve as laboratories of 
innovation to positively influence the larger traditional public school 
system.
    Thank you again for the opportunity to present today. I'm happy to 
answer any questions you may have.
                                 ______
                                 
    Chairman Hunter. Thank you, Mr. Ziebarth.
    And thank you all for your testimony.
    I am going to start out, first question for Ms. Eaddy-
Samuel and Mr. Chavous. You talk about choices and you talk 
about not necessarily pinning those choices on a charter school 
but looking at anything that makes sense. Can you just talk 
about that for a minute, and the different types of--call them 
structures that states can use to provide the education to the 
kids?
    Mr. Chavous. Well, thank you, Mr. Chairman. To me the 
essence of parental school choice is not a zero sum game. It is 
not an either-or proposition. A lot of people who talk about 
education reform try to put, you know, the issue of reform in 
different boxes.
    To me, you know, we have got to fly the plane while we fix 
it. For the long term let's look at systemic reform. Let's look 
at putting things in place that will fix wholesale school 
districts.
    But in the meantime we are losing too many kids, so having 
all options on the table is critically important. Plus, we 
know, similar to when you go through a buffet line at a 
restaurant, not everyone is going to want chicken fried steak. 
So if that is the only option you have and you are penalized or 
victimized by your zip code to be in a school where, like, as 
Ms. Samuel knows, there is a school in Hartford where 95 
percent of the kids are failing. Well, because of the zip code 
those kids have--and those parents have no other options. That 
is not right.
    There is nothing wrong with having a wholesale menu of 
options--public school choice, charter schools, private 
schools, tax credits, magnet schools, specialty schools--
whatever will help a child learn. And in my experience, where 
you have more options you have more engagement because once the 
school district knows that parents are educated consumers and 
they can shop for options and they can find the program that 
meets the needs of their individual children then a certain 
magic happens.
    We have seen it here in the District; we have seen it in 
New Orleans; we have seen it in Milwaukee; we have seen it in 
Florida. We have seen it in places where there is more choice, 
there are more opportunities, and it actually provides an 
incentive for the school district to take the issue of 
individual children's engagement more seriously.
    Ms. Eaddy-Samuel. So I am going to talk about this from a 
legal standpoint because I am obligated by law to send my child 
to school. So it is past just me having the good heart. So if I 
don't send my child to school it is educational neglect; if I 
send my child to an unsafe school or a school that can't meet 
his need it is still educational neglect because the needs of 
my children won't get met. And we pay taxes and schools are 
supposed to be designed to meet the needs of children.
    Now, in regards to the parent trigger, when I saw it in 
California I saw it as a last resort. The parent trigger is 
just a mechanism that allows parents to improve the system when 
all else fails.
    In Connecticut we are one of six states that will arrest 
parents for going out of school district to get a better 
school. Or you could be a homeless mother that had been 
displaced. Or you could be a divorced parent that has met some 
obstacles. But as soon as you try to access a school that might 
not be performing great in your district into another one we 
could be arrested.
    We can't have it both ways. You either want me a part of 
the process to ensure my child's well-being or then he 
becomes--he or she becomes the tax burden where the social nets 
and all the other supports that are needed, or the prison 
system, the school-to-prison pipeline.
    And I, for one, as a parent can't allow that to be. I could 
just not give my child into a system and say with the luck of 
the draw we hope for the best.
    So having these conversations you--parents across the 
country--Parenting Magazine, Mom Congress, Parents out of 
Pennsylvania--thousands of members--traditional and 
nontraditional parent groups are weighing in because they want 
to say, ``How can I ensure that my child's need is being met?'' 
And that only can happen by giving parents the legal power to 
improve the system.
    And right now we are only good to sit at public forums like 
this or weigh in with the school board, but at the end of the 
day someone else is making the decision even if it is not in 
the best interest of children.
    So having the parent trigger, having choice helps to 
stabilize communities, because one thing I can say for sure 
with the parent trigger, even though Connecticut probably has 
the weakest version, one thing I am 100 percent sure, some 
parents who had never visited the school now are engaged. We 
have parents who are in the child welfare systems who have to 
take parenting supports. Now they are asking the conversations 
because they know they at least have something that they can 
leverage when all else fails--foster parents, adoptive 
families.
    The parent trigger and having choice helps level the 
playing field for the most neediest children. And even when 
they talked about vouchers and scholarships, or what do you 
call them, scholarships, I was a little concerned. But to help 
level the playing field you would give children that, for the 
most part, won't have access to high-quality schools that 
access.
    Chairman Hunter. Thank you both. Sounds like it is about 
school choice and it is about parental involvement.
    I would like to recognize the ranking member, Mr. Dale 
Kildee, for----
    Mr. Kildee. Thank you, Mr. Chairman.
    Dr. Fletcher, to what degree does the participation of a 
parent or parents make a difference, perhaps more than the type 
of school, whether it be a public, charter school, or a private 
school? In a traditional public school how would effective 
parental outreach significantly improve the quality of 
education in that school?
    I guess my question is, what is more significant, the 
parental involvement or the type of school?
    Ms. Fletcher. When parents are involved in the school we 
know through research--and a lot of it has been done by the 
Harvard Research Project--that school performance of their 
children increases,; achievement of outcomes increases. Parents 
need to be engaged but they also need to be invited into the 
system to be engaged, and for many of the schools throughout 
the country, that very welcoming environment doesn't exist.
    The family partnership standards that PTA endorses and many 
states have also taken on as standards for their schools--
Rochester in New York State has accepted the standards--
provides for opportunities for parents to feel welcome in the 
school. From the moment that they cross that door they are 
invited to speak to teachers; you don't have to have an 
appointment at a time that is not convenient to you; 
principals, who are the leaders in school buildings, are very 
open and flexible in meeting with parents.
    But real parent engagement means that parents have to sit 
at the table when decisions about what kinds of programmatic 
changes or curricula are offered, and that takes a commitment 
on the part of school districts; it takes a commitment on the 
part of the states in which those school districts find 
themselves to make that commitment that parents are an 
important voice.
    That voice is so critical to student achievement, because 
once you become involved in the school you start asking 
questions, and those questions hopefully will generate change 
in the district. School choice is an important option for 
parents, but school choice is not something that every parent 
can be a part of because it often is limited in the amount of 
space in any of these choice programs, whether they are charter 
schools, whether it is vouchers. Parents that are motivated are 
always engaged. It is those parents who find a hard time 
feeling welcome in the school, find a hard time to really feel 
that their voice makes a difference.
    So with PTA--and I can speak very specifically about New 
York State PTA--we are consistently offering opportunities for 
parents to learn how they can become part of the educational 
process in their schools to help their children by asking 
questions, by demanding answers to questions, but more 
importantly, by having the tools that they need--the data of 
their children--so that they can be informed of whether their 
child is progressing as their child is progressing, not after 
the fact.
    In New York State assessment data comes after the child 
completes his or her educational year. Not effective because 
now that child is going into another school year possibly with 
deficits.
    We need some kind of very formative types of assessments 
that occur during the school year so that any difficulties 
children have can be addressed not only within the school but 
with the parents, as well. That is what parent engagement is.
    Mr. Kildee. How can an organization like PTA--because you 
have a school board, you have the administrators in the 
building--how can the PTA enhance the involvement of parents in 
improving the quality of that school?
    Ms. Fletcher. A lot of that is information that can be 
shared with parents. What we try very much to instill in our 
leaders throughout New York State is that they need to inform 
parents of what rights they have in the educational process.
    Many parents feel that they have little say in the 
educational process and that is absolutely not true. Parents 
are the best advocates for their children. As a state 
association we can advocate on behalf of all children, but as a 
parent I have the right and I have the obligation to advocate 
on the behalf of my child, and then, by extension, all 
children.
    The role of PTA in a school building would be to inform 
parents of what their rights are--not just if their--if their 
child has learning disabilities, but all children, regardless 
of what their educational level or achievement potential is. 
That means sharing best practices. That means having parents 
sit at the table. And I believe that that is critical that 
parents need to be part of the decision-making process, not 
just the recipient of what school administrations or school 
boards decide for children.
    Mr. Kildee. Thank you, Dr. Fletcher.
    Ms. Eaddy-Samuel. Am I allowed to weigh in or no? Oh, 
sorry.
    Chairman Hunter. Not right now, if you don't mind. But if 
someone else wants to--there will be a time.
    I will recognize now the chairman of the full committee, 
Mr. Kline, for----
    Mr. Kline. Thank you, Mr. Chairman.
    Thanks to the panelists for being here today.
    It is kind of fun to sit here and realize that we are all 
in violent agreement that having parents involved is a good 
thing. And of course the challenge is, how do you get the 
parents involved and what is the role of the federal government 
in getting parents involved? And those are things that we are 
looking at and exploring.
    And some of us up here are very, very big supporters and 
proponents of programs like the D.C. Opportunity Scholarship 
program, the incredible touching stories that have come out of 
that. And I have had discussions with parents and grandparents 
who are just desperate--desperate to--for their children or 
grandchildren to have an opportunity to succeed and to be 
rescued--that is a terrible way to think about this, but be 
rescued from horribly failing schools in some places.
    And so it seems to me that the more choice that parents 
have the more they are likely to be involved and the better 
outcomes we will have for our children and the better hope for 
their future that we will have. And yet there are strong 
opponents to choice programs, particularly any choice program 
that includes the word ``voucher.''
    And typically these organizations who are opponents of 
broader choice than just public school choice say, ``Well, you 
are taking money. You are taking money away from the public 
schools and therefore we can't do that.'' And yet, our per-
pupil spending across the board is up even in areas where you 
have established choice programs.
    So, Mr. Chavous, I am going to turn to you and ask, how can 
that statement be true that if you have a choice program you 
are taking money--we know it is not the case in D.C. with the 
D.C. Opportunity Scholarship program because of the way it was 
put together, but can you address that challenge, if you will? 
And then if you have some examples where we have actually, 
through a choice program, been able to lower cost for local 
districts I would just like to hear you explore that aspect.
    Mr. Chavous. Sure. Certainly, Mr. Chairman.
    For instance, in Louisiana, where the scholarship was just 
around $4,000 and the per-pupil spending in New Orleans was 
double that, in most of these places where you have these 
opportunity scholarships the cost is lower because the 
scholarship is being made available to parents to go to--
directly to tuition and you are not feeding a bureaucracy, you 
are not feeding a system.
    One of the biggest challenges we have in school districts, 
and I know this very well having--you know, I had oversight 
over the D.C. public school system--is that we know that less 
than 60--65 percent of the dollars that a school district has 
will go into the classroom. So most of the money--a good 
portion of the money--and it varies from jurisdiction to 
jurisdiction, but a good portion of the money does not go 
directly in the classroom.
    The beauty of these scholarships is that you know that the 
money is going to go directly to the institution that is going 
to provide the education for these kids. And so there is 
savings in Florida; there is savings in Milwaukee; there is 
savings in New Orleans; and as you know, savings here in D.C.
    And the real thing, I think, that we have to keep in mind 
in terms of some of the opposition, this is not--this should 
not be a political exercise. I mean, I think if we are going 
to--we should need to de-politicize this education issue in 
this country. That's what sets us apart, frankly, in a negative 
way from our peers in other industrialized nations. I have 
travelled around the world and what I have seen in Finland, in 
Belgium, in Taiwan, in other parts of the industrialized world, 
is that they don't put the same level of politics associated 
with creative and innovative proposals.
    We do. So, you know, if you are a Democrat you are supposed 
to line up a certain way; if you are a Republican you are 
supposed to line up a certain way. And what is lost, I think, 
is really saying, look, what is best for children, particularly 
children with the greatest need who come from the highest 
poverty districts who we know if we don't step in and do 
something now they will fail? And I think that is the essence 
of parental choice that people need to keep in mind. Not only 
is it a way to engage children where they are and save them, 
but frankly, it helps our community, as Gwen alluded to.
    Mr. Kline. Thank you. I have got about 20 seconds left.
    You wanted to weigh in? This is your chance.
    Ms. Eaddy-Samuel. So, I have two children in the public 
school system. They both attend traditional schools. But as I 
know my child, my middle school child needs to be in another 
environment; he is a hands-on learner. So I should be able to 
have that option because at the end of the day I want him to 
succeed, like we all should want him to succeed.
    Buildings don't educate children; it is the people in them. 
And so it is not about you rescuing. I don't need rescuing; I 
need access to the power so that when it doesn't work--it is 
more cost effective when it works.
    It is when it doesn't work what do you expect me to do? It 
is not about having my voice. We can have bake sales and plant 
sales all day long but at the end of the day it is about 
accessing those 26 letters to the alphabet.
    So with all due respect, you know, to have someone else 
tell me what is best for my child, it is not going to work. But 
if we work together with the teacher and with the educators, 
the systems, it is saying, ``Okay, this is what my child needs. 
What do you need from me as a parent? What do I need from you 
as a teacher? What are the expectations? And then how are we 
going to get it done?''
    At the end of the day it is that--to ensure that the needs 
of children get met first. So I don't need rescuing----
    Mr. Kline. Thanks. I see my time has expired.
    Chairman Hunter. Like to recognize Mr. Scott for 5 minutes?
    Mr. Scott. Thank you, Mr. Chairman, and thank you for 
calling the hearing.
    I would like to thank all the witnesses, especially Mr. 
Chavous, who I have known for a long time.
    Fact is our public schools need more resources, not less, 
and the voucher initiatives tend to divert funds that could be 
used for public schools into private school vouchers. Instead 
of helping public schools they will--the vouchers help a 
privileged few who can get access to a voucher and have the 
resources to actually use it to pay for the cost of education. 
The cost of education often is more than just the tuition 
charge. Many schools are subsidized and so the recipient not 
only has to cover the tuition but also has to get access to a 
charity or religious institution that would subsidize the full 
cost of the education.
    We have heard a lot about parent choice to a private school 
education. That choice is only available to those who win a 
voucher lottery. And then so it is not a choice; it is really, 
maybe, a chance.
    With the same logic we could solve the Social Security 
problem by selling lotto tickets. Those who win the lotto will 
be much better off. But of course, few will win; those who do 
not win will not be helped at all.
    Likewise, 90 percent of the people who seek a voucher will 
lose the voucher lottery so they don't have any choice at all. 
Even though they have entered the voucher lottery they didn't 
get a choice. They will remain in the public schools; those 
schools will be worse off because money has been diverted.
    So we know that those who get vouchers will be worse off. 
Incredibly, evidence is now showing that even those who win the 
voucher lottery may not be better off at all. Studies in D.C. 
and in Milwaukee reveal that there is virtually no improvement 
in education. Furthermore, those students in the program that 
were--that we are supposed to be helping are not the ones 
benefiting.
    Those in failing schools represent a small portion of those 
who use the vouchers because many of those who use the vouchers 
were already in private schools. In fact, only 75 out of 1,300 
vouchers in D.C. went to students who were previously enrolled 
in failing schools.
    The schools that these children attend with vouchers are 
not covered by the same educational accountability standards as 
public schools and the students and employees are not covered 
by the same civil rights protections. In fact, we have had 
problems with students with disabilities and how they are being 
treated.
    So our challenge as legislators is to come up with a 
policy--promote a policy that improves the education for 
everyone, not just the politically connected, privileged few 
who can activate the program and take care of their children. 
One of the things that I have heard is that those parents who 
are well-engaged, and sophisticated, and can figure out the 
system pick the better schools.
    My question, Dr. Fletcher: If all of the sophisticated--if 
you have a failing school and all of the sophisticated parents, 
very much involved parents, elect to go somewhere else and the 
school--the failing school--is relegated with students of 
parents who are not sophisticated and not engaged, what does 
that do to the system?
    Ms. Fletcher. There are many parents who do not feel 
comfortable bringing their concerns or their issues into the 
educational system, into their school buildings. And I think 
that is a reality.
    Vouchers are something that--as PTA we believe that public 
funds should be used to improve the education of public 
schools.
    Mr. Scott. But if you have a school that is going to have 
the same 600 students in it one way or the other and you have 
taken away from the school all the sophisticated, engaged 
parents and the only people that are left are those students of 
unsophisticated, unengaged parents, what kind of education are 
you going to get at that school?
    Ms. Fletcher. I don't believe, I guess personally, as, you 
know, representing New York State PTA, that you cannot educate 
parents to become sophisticated and to be movers and shakers in 
their school systems. So if parents that are very motivated--
and motivation is not necessarily linked to being educated; 
motivation means that you want what is best for your child and 
you will do everything possible to get what is best for your 
child. If they leave the school system I don't see it as a 
given that the school system will, you know, continue to fail 
or fail even more because if parents are really partners you 
may not have those parents leaving in the first place.
    And also, you will have opportunity for those parents who 
may not really have believed that they were partners to become 
partners. I guess that is really kind of at the crux. If 
parents see themselves truly as partners, accountable for the 
educational success or not of their children they will become 
involved.
    Too often they are--they feel they are just spectators. I 
am sending my child to school; you have him for 5 or 6 hours; 
he comes home and I get some kind of a report card at 
intervals, and I can't do anything or I shouldn't do anything 
about whether or not he or she succeeds.
    Sitting at the table, being invited--perhaps that is the 
most important point that I can make. Parents need to feel that 
they are invited. The motivated parents will go into the school 
and make sure that their voice is heard. Others need to be 
invited in, and I believe that is the responsibility of the 
school system to invite parents and ask them to be partners.
    Chairman Hunter. Gentleman's time is expired.
    Now I would like to recognize----
    Mr. Scott. Mr. Chairman, can I ask unanimous consent to 
enter into the record studies and a letter from the National 
Coalition for Public Education.
    [The information may be accessed at the following Internet 
addresses:]
    [Evaluation of the Cleveland Scholarship and Tutoring 
Program Technical Report 1998-2004:]

    http://ceep.indiana.edu/projects/PDF/200602_Clev_Tech_Final.pdf

                                ------                                

    [Information Underload: Florida's Flawed Special-Ed Voucher 
Program:]

    http://www.educationsector.org/sites/default/files/publications/
                           McKay_Vouchers.pdf

                                ------                                

    [Special Education and the Milwaukee Parental Choice 
Program:]

      http://www.uaedreform.org/SCDP/Milwaukee_Eval/Report_35.pdf

                                ------                                

    [Evaluation of the DC Opportunity Scholarship Program:]

         http://ies.ed.gov/ncee/pubs/20104018/pdf/20104018.pdf

                                ------                                

    [MPCP Longitudinal Educational Growth Study--Fourth Year 
Report:]

      http://www.uaedreform.org/SCDP/Milwaukee_Eval/Report_23.pdf

                                ------                                

    [District of Columbia Opportunity Scholarship Program: 
Additional Policies and Procedures Would Improve Internal 
Controls and Program Operations:]

                 http://www.gao.gov/new.items/d089.pdf

                                ------                                

    [The statement of the Lawyers' Committee for Civil Rights 
Under Law follows:]

            Prepared Statement of the Lawyers' Committee for
                         Civil Rights Under Law

    Chairman Hunter, Ranking Member Kildee, and members of the House of 
Representatives Committee on Education and the Workforce, Subcommittee 
on Early Childhood, Elementary, and Secondary Education, thank you for 
this opportunity to submit comments for the record regarding the May 
16, 2012 hearing on ``Exploring State Success in Expanding Parent and 
Student Options.''
    The Lawyers' Committee for Civil Rights Under Law, a nonpartisan, 
nonprofit organization, was formed in 1963 at the request of President 
John F. Kennedy to involve the private bar in providing legal services 
to address racial discrimination. The principal mission of the Lawyers' 
Committee is to secure, through the rule of law, equal justice under 
law. The Committee's major objective is to use the skills and resources 
of the bar to obtain equal opportunity for minorities by addressing 
factors that contribute to racial justice and economic opportunity. The 
Lawyers' Committee launched the Educational Opportunities Project in an 
effort to guarantee that all students receive equal educational 
opportunities in public schools and institutions of higher learning. 
The Educational Opportunities Project seeks to maximize the potential 
of our most vulnerable students by narrowing the opportunity gap 
between low income and more affluent students, and minority and non-
minority students. Our Parental Readiness and Empowerment Program 
specifically promotes the importance of parental involvement in 
curtailing the significant drop-out rate for Latino and African 
American youth by training parents on their legal rights with regard to 
their child's education.
    Our nation's schools are the bedrock of participation in civic 
life, and the cornerstone of a strong democracy. All too often, however 
socio-economic status is the primary determinant of educational 
attainment and future economic success. We believe that every child 
must have access to a world-class education, regardless of their 
circumstances. Our commitment to increasing parental involvement in 
public schools is one powerful tool linked to effective school 
turnaround and greater student achievement. It is imperative, however, 
that federal reform aimed at enhancing parental involvement look beyond 
school choice as the primary tool for parental empowerment, and 
implement strategies proven to empower parents to partner with and 
strengthen our public schools. As discussed at length throughout the 
hearing, voucher programs and charter school options are limited in 
their ability to address the need to provide quality educational 
opportunities for all students. Quality private and charter schools are 
not widely available, and efforts must be made to assist those students 
who lack access to such options.
    Parents are the best advocates for their children, and, 
overwhelmingly, parents want the opportunity to be engaged in their 
child's education. It is only when parents are armed with knowledge and 
skills, however, that they feel empowered to effect change in their 
child's school environment. Decades of research back this assertion, 
and show that parental involvement can have a dramatic and positive 
effect on the quality of education in local schools. The overwhelming 
consensus is that evidence-based family engagement programming, 
integrated throughout the school system, can improve school attendance, 
school readiness, student social skills, and high school graduation 
rates. In fact, parental engagement is so important to student success, 
that lack of access to out-of school support is predictive of future 
educational deficits in students. Unfortunately, many parents lack 
access to critical information about available educational supports, 
and about the basic educational delivery system at their child's 
school.
    Effective family engagement strategies require a clear commitment 
to parental engagement. Factors such as amount and quality of 
communication between parents and teachers, relationship building 
opportunities among parents, and timely access to data on student 
achievement consistently predict the degree and efficacy of parental 
involvement.
    Federal policy plays an indispensible role in building the 
framework for parent involvement. Current policy already includes 
spending requirements for parental involvement strategies, directing 
districts to spend at least 1% of their Title I funds on creating 
opportunities for family involvement. While this has had some role in 
promoting family engagement practices, such efforts have been 
inconsistent, underfunded, and unclear in their definition. Stronger 
federal policy provides the opportunity to create a clear and 
consistent definition of parental engagement that espouses an 
integrated approach parent involvement and emphasizes a community-based 
strategy. The most effective parent engagement programs make family 
involvement part of the overall educational plan, integrating 
engagement techniques from the classroom level up through to school 
administration. When schools are perceived as having a clear commitment 
to involving parents in the overall decision-making process, parents 
are more likely to seize the opportunity to become involved in their 
child's education.
    Effective parental engagement policies must also facilitate 
meaningful communication between parents and school faculty. Meaningful 
communication encompasses both enhanced access to performance data as 
well as culturally sensitive outreach. For instance, parents have a 
right to know when their child is being taught by a teacher that is not 
highly qualified, what resources are available to enhance their child's 
education, as well as what their responsibilities are to facilitate 
learning outside the classroom. All too often, this information is 
inaccessible, or comes too late for a parent to intervene. Student 
achievement and teacher instruction information should be presented in 
a readable and comprehensible format at intervals where the data can be 
utilized to improve the child's instruction.
    Moreover, schools must break down the communication barriers 
between parents and educators. Perceived power gaps are a significant 
deterrent to parent engagement in schools, especially in low-income and 
minority communities. Districts should provide professional development 
for teachers that emphasize a patient, culturally sensitive approach to 
building relationships. Parental engagement policies should facilitate 
structured training to encourage parents to be participants and 
leaders.
    Parent-school partnerships are more easily facilitated when schools 
reflect the communities they serve, and should incorporate their 
communities' culture, values, and interests when designing curriculum. 
Parents offer a wealth of perspective and experiences that foster 
meaningful collaboration.
    Federal policy must also monitor and track district efforts to 
enhance family involvement. Effective oversight and accountability is 
vital to ensuring schools actually commit to integrating these policies 
into their school's culture and curriculum.
    In closing, Mr. Chairman and members of the committee, The Lawyers' 
Committee stands prepared to work with you to ensure that the committee 
understands the vital role these programs play in the lives of so many 
of our nation's children. While parents can feel empowered by increased 
school choice, school choice options alone are not the solution. We 
urge the committee to enhance investments in parental engagement 
programs that work to build the capacity of existing public schools, 
and to ensure all children can achieve the best possible educational 
outcomes. If you have any additional questions, please contact Jessica 
Newman, Education Law Fellow, at (202) 662-8326.
                                 ______
                                 
    Chairman Hunter. Without objection.
    Mr. Scott. Thank you.
    Chairman Hunter. And we have that information, too.
    And I would like to recognize Mrs. Foxx for 5 minutes?
    Mrs. Foxx. Thank you, Mr. Chairman. I appreciate the 
opportunity.
    I do want to say that a group of students from Appalachian 
State University just came in. They are political science 
students and this is their first opportunity to be at a 
hearing, and I am really glad to welcome them to the hearing.
    I am sorry that I have had to be in and out of this hearing 
this morning, but it is Wednesday and there are a lot of things 
going on around here on Wednesdays.
    I do want to say to you that I--here--I learned many years 
ago that the--what makes a successful school is a good 
principal, good teachers, and parental involvement. And I say 
that to people all the time.
    It isn't money that makes a good school. I grew up in 
western North Carolina in about as poor a place as there ever 
has been, and I say I got a really excellent education. And 
when you look around you see that continuing all over the 
country.
    So I am pleased that we are having this hearing on parental 
involvement, and I would like to expand a little bit on the 
things that have been said.
    Mr. Chavous, you said in your testimony that parental 
choice is the very definition of parental engagement. Could you 
briefly explain how that engagement carries on throughout the 
school year because of that initial choice? It seems self 
evident, but if you would make a couple of comments about it I 
would appreciate it.
    Mr. Chavous. Thank you very much, Congresswoman.
    You know, it is interesting, when--I think I just heard 
from Dr. Fletcher that some parents can't become engaged or 
something to that effect. I have seen the opposite with parent 
choice programs, and in fact, in places where there is a robust 
parental choice program or movement in place--Milwaukee, here 
in D.C., New Orleans--we actually train parents on how to 
advocate for their children.
    You know, when parents have kids in failing schools they 
are intimidated by the process, they are intimidated by the 
school. Oftentimes you have two or three generations of 
families who have had--who have dropped out.
    But once we had these programs in place we work with 
organizations on the ground to train parents on how to be 
advocates for their children. And magic happens, and I will 
give you one quick example.
    In New Orleans in the scholarship program we had there I 
witnessed 25 low-income single mothers who lived in public 
housing who all stood up one at a time--the program was run by 
them; half of them could not read--and talked about the benefit 
of seeing their children in a voucher school and seeing the--
their children learning for the first time, something they 
hadn't experienced in their lives and in many of their mothers' 
lives, and it motivated them--half of them to go to try to get 
their GED. And see, now they are not intimidated by the process 
and they are active participants in their child's education, 
and otherwise that wouldn't have happened.
    Mrs. Foxx. Thank you very much.
    Mr. Ziebarth, you offer several examples of actions that 
states have taken to expand charter schools and I am very proud 
to have been in the state legislature when we began the charter 
school movement in North Carolina. Based on your experience, 
what do you think are the most critical changes states can make 
to help provide more opportunity for students hoping to attend 
high-quality charter schools?
    Mr. Ziebarth. Thank you. I think there are a few things 
that states can do that will have the most impact. I think one 
is ensuring that charter schools have the autonomy that they 
need to succeed, the flexibility to innovate that is core to 
the model. I think it is important for states to also take 
seriously the accountability part of the bargain and strengthen 
their laws to ensure that high-quality charter schools can 
thrive and those charter schools that aren't meeting standards 
are closed down.
    And then I think the last thing is providing equity for 
kids in terms of resources. As I mentioned in my testimony, 
charter kids get 75 percent of the dollars that flow to 
students in traditional public schools, and from our 
perspective, ensuring that a child has all of the resources 
with him or her as they move from one school to another is 
critical.
    Mrs. Foxx. Well, thank you all very much again for being 
here and I may have some other questions to submit to you but 
my time is almost up and so, Mr. Chairman, I yield back.
    Chairman Hunter. Thank the gentlelady.
    Mrs. McCarthy is recognized for 5 minutes?
    Mrs. McCarthy. Thank you, Mr. Chairman, for having this 
hearing. Congressman Platts from Pennsylvania and I have been 
working on this issue for many years.
    And I want to thank Dr. Fletcher for being here today 
because she, on the New York State level, has been working with 
us to get it implemented, so I appreciate that. It is always 
great to have a constituent come and testify in front of this 
committee.
    Certainly in my district I know I have underserved schools, 
I have excelling schools, but I do know that the parents are 
extremely involved and we have learned a lot of lessons over 
the years. So I thank you for your hard work.
    There are a couple of things from hearing the testimony, 
Dr. Fletcher,that I want to ask you, because you have been 
involved in this now for a while. In order to effectively 
engage parents, because we heard the Honorable Mr. Chavous talk 
about, you know, how they have done it for the charter schools, 
yet I know for a fact that we are doing that in New York State 
on getting parents to raise their voices to have better 
schools. One of the things that I have been saying for years, 
can you talk about how the teachers and the administrators can 
help support?
    We have had a number of programs where we have the parents 
sign up that they are going to be involved in their child's 
education and we have seen those particular students do 
extremely well. So there is a big difference there.
    But one of the things that I also think that is important 
is that a lot of people are just starting to look at now, when 
we--if you could give examples of effective professional 
development for our teachers and the leaders in family 
engagement practices, and should our colleges of education, 
which I happen to think is important, require future teachers 
to be competitive in family engagement practices to be able to 
be--to help these parents, and are we doing that in New York 
State, and do you see that in other areas when you are talking 
to other presidents of the PTAs across the country?
    Ms. Fletcher. You mean teachers, how they can successfully 
engage parents?
    Mrs. McCarthy. Right.
    Ms. Fletcher. I think that we are very fortunate in New 
York State that some of our teacher preparation colleges have 
already realized the importance of preparing their teachers as 
they go out into the school systems to understand what family 
engagement is. So I can give you some examples. At the 
University of Rochester there is a course called ``School 
Family and Community Relations'' where the students need to 
take the course as part of teacher preparation and go out into 
the communities, engage parents in conversation, try to 
understand what it is parents need and want from the school 
system, and then go back and speak to the administrators as 
part of coursework to ensure that what parents and communities 
want is being heard.
    Once you have teachers understanding how important it is 
for parents to have voice, as they go and become teachers in a 
school system it is the expectation that they will continue 
that. The University of Rochester isn't the only one who 
started those kinds of programs. The SUNY system, State 
University of New York system, in some of its teacher 
preparation courses, specifically at Potsdam, also has a 
similar course, ``Family School Community Collaboration,'' 
where students really get to understand how important parents 
are in the education process, and if they are going to have 
meaningful achievement outcomes they need to have parents be 
partners in the education.
    Mrs. McCarthy. One of the things I want to follow up on, 
too, because I grew up with learning disabilities, my son has 
learning disabilities, and I know--and I can only speak for 
some of the schools in my area. One of the things that we are 
seeing with the charter schools, that they have the ability of 
not taking children with disabilities or special needs, which 
obviously is a burden onto our public schools because they 
bring down the test scores and everything.
    So I will throw this out there for parents of children with 
disabilities who do take a voucher must forfeit their rights 
under IDEA. They must forfeit their rights under IDEA. So with 
that right there I am saying that these children, and their 
parents are fighting to give them the best education possible, 
still don't have the true choices that they sometimes need. And 
I think it is important to note because New York State keeps 
very close tabs on this.
    And I--with those that supported the charter schools. The 
charter schools should be under the same regulations if they 
are not educating the children, and a lot of our charter 
schools are failing the children.
    And I am saying let's take the best practices between our 
public schools and our charter schools so that we give our 
children the best education. And that is going to come down 
when the parents have a voice--and have a very strong voice--to 
change inside the school. And they have that voice. They vote 
for their school board; they vote for whoever their--the 
superintendent from--through the school board. So they do have 
voices but we have to make those voices stronger.
    It is not easy when you are dealing with poverty. It is not 
easy when you are dealing with children that are starving when 
they go home. Those are social issues that need----
    Chairman Hunter. Thank the gentlelady. Her time is expired.
    Like to recognize Mr. Platts for 5 minutes?
    Mr. Platts. Thank you, Mr. Chairman, and apologize to the 
chair and to the witnesses that I am going to ask a question 
and then run and not get to hear the answer because I was due 
in the Capitol 10 minutes ago.
    But I first thank each of you for being here. You know, I 
want to emphasize that to me these issues are not political at 
all, and, you know, when we talk about choice, which I have 
supported within the public school system, I do not support 
vouchers that take money out of the public school system, first 
of all because we promised 40 percent of special ed, 1975, and 
we are funding less than 20 percent of that commitment, you 
know, so less than half of what we promised. So when we have 
extra dollars to spend let's keep our word first to the public 
schools, because when we don't fund special ed the challenge 
for public schools is all the greater to have smaller class 
sizes, to have parental engagement programs because we are not 
keeping our word. So if we have extra money let's keep our word 
first.
    Also, my objection to vouchers, and it goes to what a 
number of my colleagues talked about, the few who get the 
voucher, I will acknowledge that maybe they get a better 
education--not necessarily, but let's assume they do--my 
concern is the overwhelming majority of students who are still 
in the school that they left. What did we do? When we give a 
voucher, you know, we talk about improved results for those who 
get a voucher.
    What do we get for the 98 percent of the students who are 
still in that same building? I would contend we made it worse 
because not only did we divert funds from that schools, we took 
out a parent and a student, or parents and students, who are 
engaged students and parents, who care about education, who are 
committed to getting a good education for the children.
    When my parents went in and fought for me to get a good 
education in my public school, as I do with my children in the 
very same school district, it is not just looking out for my 
kids; it is benefitting every child in that school. So when you 
take that engaged student away you have taken a good role model 
away from the other students. When you take that engaged parent 
away you have taken an advocate away for the public school 
because our duty as a nation is to every child, not the select 
few that can get out and go somewhere else.
    Every child that goes to that school gets a good education, 
so, you know, we can, you know, talk about the results of those 
who get away but our commitment is to everyone. And the issue 
here is we just don't want to do our job. You know, the D.C. 
schools, it is our responsibility. D.C.--the District of 
Columbia--is under Congress. It is easier to throw some money 
at a voucher program and say, ``We did our part,'' than to 
really get into the nuts and bolts of what is wrong with the 
school system here in D.C.
    And so our focus should be getting ourselves, whether it is 
Congress, local school districts, state departments of 
education, to do our jobs and fix what is wrong in schools 
where there are problems, not abandon the schools for some who 
can go elsewhere. And that is, to me we just are--have not made 
the commitment or have been willing to do that.
    So I do apologize. I have to run.
    Dr. Fletcher, for the record, if you could expand, I know 
in New York that the PTA New York with the state Department of 
Education and the education agency and the--and the statewide 
PIRCs have had a great partnership of how to really promote 
parental engagement and how that has benefitted, you know, 
getting better results for the students. The proposal to 
eliminate all the funding for PIRCs, could you share for the 
record--and I apologize that I will see it in the record and 
not here today--how that cut in funding will impact that 
partnership that is already existing and working in your state 
and how it will be impacted if we take away that funding?
    So, with that I will yield the balance of my time to the 
witness and----
    Ms. Fletcher. Yes, I would be happy to. We are very proud 
of the partnership that we started about 5 years ago with the 
PIRCs.
    Mr. Platts. And, Dr. Fletcher, could I yield my time to 
Mrs. McCarthy? Can I yield to her--do I have to stay in the 
room?
    And I ask unanimous consent that I be allowed to leave to 
keep a commitment at the Capitol. Am I allowed to do that? 
Unanimous consent that I can----
    Chairman Hunter. Without objection.
    Mr. Platts. Thank you, Mr. Chairman.
    Thank you, Dr. Fletcher.
    Ms. Fletcher. Okay. We are very proud of the partnership 
that has existed now for nearly 5 years with the PIRCs, and in 
response a little bit, what was said before, it is not that 
parents can't become engaged; it is that sometimes they don't 
know that they have the right and responsibility to become 
engaged.
    Part of the wonderful partnership was that PIRC, through 
its programs and through its mission, enabled parents to have 
voice in their schools by actually educating them on how to do 
that and providing all of the resources that they needed as 
well as developing programs for school leaders so that they 
would understand the importance of and the process of getting 
engaged.
    With PIRC we have been----
    Chairman Hunter. The gentleman's time is expired and the 
gentleman is no longer----
    Ms. Fletcher. Sorry.
    Chairman Hunter. I would like to recognize Mrs. Davis for 5 
minutes?
    Mrs. Davis. Thank you. Thank you, Mr. Chairman. And if I 
could I would like to associate myself with the remarks of Mr. 
Platts, particularly as it--regarding the need, I think, that 
we have to improve all of our schools for all of our children, 
and I think that is very important.
    I wanted to just mention, because I think it--we are 
focusing on parent involvement, which I happen to believe is 
critically important. Having been on a large, urban school 
district for 9 years I understand that very well.
    But the reality here is that what we are seeing in schools 
across the country is cutting back resources. And what is so 
critical and so important is what is happening the school 
itself, whether the--some of the newest and most enthusiastic 
teacher are being given pink slips, whether the parent 
facilitator, who has been at the school for a number of years 
but in many cases is not degreed but is fabulous, is--what 
small salary she receives or he receives is, you know, is being 
cut. That is critical, as well.
    And so I think we can't lose sight of those issues because 
everyone is struggling today, and what we have to do is be sure 
that the emphasis and that the support is there because this 
element of teaching is critically important and we have to 
provide teachers with the collaborative structure so that the 
tone of the school is focused on children and parents and what 
they are doing together. And, you know, I think it doesn't 
really matter what kind of a school it is, that is what is 
critical. And the public school system particularly is losing 
out right now because of that.
    I wanted to turn to Mr. Ziebarth for just a second to talk 
about best practices as it relates to pledges that parents 
take, because yes, schools have responsibilities, parents have 
responsibilities. I think we would all agree with that. And one 
thing we know is that parents of public--of private school 
children have some tradeoffs, really, in school, particularly, 
I think, in parochial schools, but I think in all schools when 
it comes to tuition, whether kids are there all the time. I 
mean, there are all kinds of ways that you engage parents that 
you can't do in public schools.
    What do you think is critical--when you look at a KIPP 
academy, for example, what is critical in a pledge and what do 
you think is possible--truly possible in the public schools 
when we come to this area of partnership in schools?
    Mr. Ziebarth. Yes. I thought it was interesting, one of the 
other witnesses, in talking about the meaning of engagement, 
referenced the word ``agreement,'' and that really is that the 
heart of these commitments to excellence. That is what KIPP 
calls them; other schools call them different things. And they 
really are an agreement between the school and what it pledges 
to do for the child as well as agreement with the parent and 
the student, also, so everybody is clear on what the 
expectations are for all involved.
    And I think charters have the ability to do that because of 
the flexibility that is core to the model. Each school is able 
to tailor sort of the--what they would like to see for parent 
engagement and create those kinds of expectations in the school 
so when parents and students are coming in, and even teachers, 
they know about the culture of the school and how the school 
is--you know, fundamentally values, you know, the deep 
engagement of all parties, knowing that, as folks have 
mentioned, the research on this, knowing that parent engagement 
is critical to the success of the school.
    And so it seems to me that that is one of those tools 
that--you know, part of charter schools is to be laboratories 
of innovation for the traditional system to take best practices 
and use it in, you know, the traditional public schools, and 
that seems to be something that is ripe for the pickings for 
traditional schools to be able to create similar kinds of 
agreements where they are able to establish strong expectations 
and the school culture for parent involvement.
    Mrs. Davis. Could I ask, Ms. Eaddy-Samuel, what the 
trigger--and I understand Connecticut is perhaps, as you said, 
a weaker system--what do you see as a critical element, though, 
in that, because once you get to that place in the school 
something has to be going on there that is--where does that 
responsibility, expectations--where does that lie that you 
think is--makes a difference? And again, we are talking about 
student achievement here. I have seen great parental programs 
which, quite unfortunately, do not boost student achievement.
    Ms. Eaddy-Samuel. Right. So when I listen to about pouring 
resources, lack of resources--it is not about lack of 
resources; it is about effectively using the resources, and 
with the expectation of better outcomes.
    So what I did notice with the parent trigger, because I, 
too, do parent training, and when I speak to parents I don't 
negotiate about the well-being of children. It is not a matter 
of if you're going to be engaged. That is why I look at family 
engagement, because at the end of the day unless you are not 
here every parent should be a part--or family should be a part 
of the child's life.
    But what I am hearing is that you are asking me to 
sacrifice my child until it gets right. And the problem is we 
know what works. Replicate what works.
    It is about ensuring--when I look at No Child Left Behind--
we don't like to talk about it, but when you talk about 
adequate yearly progress, every school doesn't need to be shut 
down or closed; some things just need to be tweaked. And so 
when I introduced a parent trigger there was a level of hope. I 
know people don't like to say that but there really was. I 
actually had hope. That is why I ran with it saying, ``Maybe I 
actually could have the power now to improve the system,'' 
because if the school environment is unsafe, if the roof is 
leaky, if you have moldy walls, that is not something I can 
control so you can't penalize me for that not being able to 
input.
    So when families were--started to engage it is because they 
have seen themselves having more than just a voice. They 
actually had the power to change the outcome of the educational 
experience of their child.
    So that is what the parent trigger does--did for me when it 
was introduced for me and that is what it does for many parents 
in Connecticut.
    But in all fairness, parent triggers will vary from state 
to state because communities know what their needs are because 
they are in that community, so what may work for----
    Chairman Hunter. The gentlelady's time is expired. Make 
sure we get through everybody.
    Ms. Woolsey is recognized for 5 minutes?
    Ms. Woolsey. Thank you, Mr. Chairman.
    And I have been here a long time and charter schools were 
just sort of a dream of some when I first was elected in--and 
sworn in in 1993, so it took me a while before I visited my 
first charter school, and I am going to tell you, small class 
size, individual learning plans, parental involvement, as the 
three concepts of making sure that any school--any charter 
school would be successful.
    Well, you know, I left there with tears in my eyes because 
every kid, like Mr. Platts just said, every kid in every school 
in this country should have those opportunities and those 
privileges. So I have been more on the side of, if we know this 
as we have learned from the good charter schools, the 
successful charter schools, that this is what we need then why 
are we not doing it and why are we then saying, ``We need to 
lead--learn more from other experiments.'' I mean, it works. 
The good programs work. They belong in the public schools. If 
private schools want to--I mean, and have their own ways of 
doing things without public money that is up to them.
    What we are doing today is talking about parental 
involvement, so one of my major concerns, however, about 
charter schools--and we have learned over the years that the 
concern is real--charter schools, because they don't have to, 
do not enroll students with disability--disabilities and--and 
English learners at the same rate as their neighboring public 
schools. We have also heard that parents of students with 
disabilities and English learners currently do not have the 
opportunity to even make that choice because charter schools 
can't meet their needs.
    So if part of parental engagement is school choice then 
shouldn't--I guess I am asking this of you, Mr. Ziebarth--
shouldn't all parents have the opportunity to send their child 
to any school and, like the public schools, shouldn't charters 
schools be held accountable for results for their English 
learning students, for the disabled students--measureable for 
annual progress, like the public schools.
    Mr. Ziebarth. The short answer is yes. And I just want to 
be clear that public charter schools are legally obligated to 
the Individuals with Disabilities Education Act. They are 
legally obligated to provide services to English language 
learners, and that like traditional public schools I think 
charters have faced some challenges with the right way to do 
that, particularly when they get 75 cents on the dollar to 
traditional schools.
    But I think over time if you actually look at the national 
data charter schools serve a higher portion of English language 
learners than in traditional schools and a slightly lower 
portion of students with an IEP. Over time those gaps have 
closed, as charters have learned, I think, how to create 
economies of scale by partnering with other schools and even 
partnering with districts to provide special education to 
students.
    So I think it is one of the challenges facing charters, is 
how to provide those services, particularly on the limited 
resources. But I think we are seeing progress in many states 
and their ability to----
    Ms. Woolsey. Would you object to measurable standards that 
are equal to public school standards for all charter schools, 
public and private?
    Mr. Ziebarth. So, from our perspective measurable standards 
would be the results for the kids, and charters should be 
accountable for the results of their students, whether they 
have IEPs or not. And so those are the things that we focus on 
because there are some charter schools that actually opened 
with a specific mission, for example, to serve autistic kids.
    Ms. Woolsey. Well, right. That is the charter. That is 
their goal, and their aim, and thank heavens.
    Mr. Ziebarth. Right. So I think there--and there are some 
charters that, you know, that is their mission and so they are 
going to have very high percentages, they are--other charters 
that----
    Ms. Woolsey. I am talking about the neighborhood school 
that kids--parental choice, that they would have a choice to go 
to the charter school that does not oftentimes provide those 
services. That is my concern.
    And I also have another concern, and that is for you, Dr. 
Fletcher.
    Chairman Hunter. Unfortunately, the gentlelady is out of 
time.
    Ms. Woolsey. Oh. It just went off.
    Chairman Hunter. Like to recognize--unless there are any 
other folks here--questions or--closing statement from the 
ranking member?
    Mr. Kildee. Well, first of all, I think it is very 
important. This issue is going to be with us for a long time, 
and we are probably never going to resolve a system that is in 
place, could last forever. But I do appreciate the fact that we 
have witnesses here today who can speak for the type of 
educational institution. I myself have a proclivity towards the 
traditional public school system because I do think it has 
served this country well. My children went to a school. They 
were four, five, and six when I came to Washington 36 years 
ago, and they were able to go to school out in Fairfax County. 
That is a very good school system.
    The problem is that we don't really have, under any of the 
systems we have today or a combination thereof, equality of 
opportunity in those schools. I have a charter school in--I 
have several charter schools in my district, one of which is 
superb except that to get in that school is very, very 
difficult. So there are people who have to drive by, look at 
it, but can't get in there. And I would like to see the quality 
of education in your traditional public school and your charter 
school and your voucher school guarantee that they are going to 
get the very best education possible with the very best 
teachers, and that is not happening now under the present 
system.
    So I think all of you would want as the ideal everyone 
getting a good education. The question is, are all three of 
these giving that equality of opportunity?
    I still have my preference for the public school system 
with all its defects, but it does--it is universally available 
and we should not take money away from that school system to 
send to another school system which can be very selective in 
its clientele.
    But I thank all of you for your input here today.
    Thank you, Mr. Chairman.
    Chairman Hunter. Like to thank the ranking member.
    And thank all of you for taking time today. I think it is 
kind of interesting, you find a bunch of folks up here, who 
will ask Dr. Fletcher a lot of questions and say that--somehow 
turn this into a voucher argument. You find some folks up here 
that are interested with a certain way or style of 
institutional learning that they grew up with and are familiar 
with and like, but I think the answer is, as Mr. Chavous said, 
you have got to fix the airplane while you are flying it.
    It is whatever works. I think it is interesting, I think we 
are learning in education now there is a new generation, a new 
model, a new paradigm of do whatever works and for whatever 
that is to work the parents have to care about it. If the 
parents don't care about it you could have the greatest 
institution in the world and it won't do anything because the 
parents don't care or the kids come home, they sit on the video 
games or they don't--the parents just have no inclination to 
enforce homework or anything else. I think that is the 
interesting side of this.
    Mr. Chavous also said this is politicized, and it is. This 
today became a voucher argument for some people, which is 
insane. When all we are talking about is getting more parental 
involvement it seems that some people are almost scared of 
parents being more involved and taking the reins out of the 
government's hand, whatever that is--federal, state, or local, 
and saying, ``I am going to take care of my kids and I am going 
to get them what they need.'' And I think that is what this 
debate should have totally been about and say how do we get 
parents to care finally and to do something about this, because 
the state will never care for your kids like parents care for 
their kids.
    So anyway, I just want to say thanks for being here. This 
is something that we hope--I hope you take out of our hands, 
because we aren't going to do this for you.
    I will not care about your kids and you won't care about my 
kids. That is just how it is. We all care that they get a good 
education but we don't have the involvement with them, the love 
for them, the time for them, that you do. We want you to take 
this out of our hands and make sure that your kids get educated 
and we can empower you to do that but we don't need to rescue 
you your way; we just need to let you go and do what it is you 
know how to do.
    So with that, again, thank you to all the witnesses today 
for being here. And with no further business the subcommittee 
stands adjourned.
    [Whereupon, at 11:38 a.m., the subcommittee was adjourned.]

                                 <all>

</pre></body></html>
